Audit Report




OIG-11-045
Audit of the Office of the Comptroller of the Currency’s
Fiscal Years 2010 and 2009 Financial Statements


December 07, 2010




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                              December 07, 2010


            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Audit of the Office of the Comptroller of the Currency’s
                                    Fiscal Years 2010 and 2009 Financial Statements


            I am pleased to transmit the attached audited Office of the Comptroller of the
            Currency (OCC) financial statements for fiscal years 2010 and 2009. Under a
            contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of OCC as of September 30, 2010 and 2009 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards; applicable provisions of Office
            of Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
            Financial Statements, as amended; and the GAO/PCIE Financial Audit Manual.

            The following reports, prepared by GKA, are incorporated in the attachment:

                •   Independent Auditor’s Report on Financial Statements;
                •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                    and
                •   Independent Auditor’s Report on Compliance with Laws and Regulations

            In its audit of OCC’s financial statements, GKA found:

                •   that the financial statements were fairly presented, in all material respects, in
                    conformity with accounting principles generally accepted in the United
                    States of America,

                •   no matters involving internal control and its operations that are considered
                    material weaknesses, and

                •   no instances of reportable noncompliance with laws and regulations tested.
GKA also issued a management letter dated October 29, 2010, discussing certain
matters involving internal control over financial reporting and its operation that
were identified during the audit but were not required to be included in the
auditor’s reports. This letter will be transmitted separately.

In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated October 29, 2010 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789 or a member
of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
Office of the
Comptroller
of the Currency

Annual Repor t | Fiscal Year 2010
THE OFFICE of the
COMPTROLLER
of the CURRENCY
seeks to assure a banking system in
which national banks soundly manage
their risks, comply with applicable
laws, compete effectively with other
providers of financial services, offer
products and services that meet the
needs of customers, and provide
fair access to financial services and
fair treatment of their customers.
    Office of the
  Comptroller
 of the Currency
Annual Report | Fiscal Year 2010
Contents
Comptroller’s Viewpoint                                              3


Section One: Year in Review                                          7


Section Two: The OCC in America’s Communities                      21


Section Three: Condition of the National Banking System            29


Section Four: Organization Profile                                 31


Section Five: Licensing and Enforcement Measures                   37


Section Six: Financial Management Discussion and Analysis          43


Acronyms                                                           81


Index                                                              83




                                                            Contents | 1
OCC Office Locations




 National Banking System at-a-Glance                              The OCC at-a-Glance

 U.S. commercial banks                    6,673                   Employees
                                                                                                              3,101
                                                                  (full-time equivalents)
   National banks                         1,487
                                                                  Office locations*                           66

       Large banks                        45
                                                                  Budget authority                            $791.7 million
       Midsize banks                      52
                                                                  Revenue derived from
                                                                                                              97 percent
                                                                  assessments
       Community banks                    1,390

 National banks, share of all                                     Consumer complaints opened                  80,336
                                          22 percent
 U.S. commercial banks

 U.S. commercial banking assets           $11.9 trillion          Consumer complaints closed                  79,660

                                                                 * The OCC maintains multiple locations in some large cities. In
 National bank assets                     $8.5 trillion
                                                                   addition, the OCC has a continuous on-site presence at large
                                                                   banks under its supervision.
 National banks, share of all U.S.
                                          71 percent
 commercial banking assets
Source: OCC data.



2 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
                                                       A major task for the OCC is integrating most
                                                       of the responsibilities and staff from the OTS
                                                       into our agency. Institutions to finance housing
                                                       were among the first building blocks of the U.S.
                                                       financial system, and we at the OCC are proud
                                                       that Congress has assigned us the responsibility
                                                       to supervise this important industry as it moves
                                                       into its third century.

                                                       While the thrift mission is new to the OCC, we
                                                       have substantial expertise in mortgage lending,
Comptroller’s Viewpoint                                the traditional mission of thrifts in America, and
                                                       in the supervision of special purpose institutions,
If the past two years have been defined by the         such as credit card and trust banks. In addition,
financial crisis, then the next two—and perhaps        more than 90 percent of the banks we supervise
many more after that—will be defined by the            are community institutions that have much
Dodd–Frank Wall Street Reform and Consumer             in common with thrifts, and that is where the
Protection Act, which was signed into law on           bulk of our supervision staff and resources is
July 21, 2010. This watershed legislation touches      deployed. We look forward to welcoming new
virtually every aspect of the financial services       colleagues from OTS who will work with us on
industry. It sets up a new structure for identifying   this mission, and we are on track to complete the
and addressing risk across the financial system,       transition by July 21, 2011, the date prescribed
creates a new agency to oversee consumer               by the Dodd–Frank Act.
protection for financial services, and establishes a
new mechanism for resolving large, systemically        However, as important as the OTS transfer is to
important financial institutions—even those            the OCC, it is only one of the many projects we
that are not banks. The new law sets guidelines        are working on as a result of the new law, and
for securitizations, derivatives, and large bank       only one of the many significant changes it will
capital, among other provisions, and it abolishes      bring to the financial services industry.
the Office of Thrift Supervision (OTS) and
transfers many of its functions to the Office of       Dodd–Frank provides important tools for
the Comptroller of the Currency (OCC).                 regulators that will lead to greater long-term
                                                       financial stability. In particular, the Financial
I have the honor of serving as acting Comptroller      Stability Oversight Council (FSOC) will
of the Currency as Dodd–Frank implementation           ensure more comprehensive risk management
begins, following the departure of Comptroller         across the system. In the years leading up to
John C. Dugan, who finished his term of office         the financial crisis, no regulatory agency had
in August. While we are very much engaged in           responsibility for supervising the entire financial
the task of supervising a banking industry that        system. By bringing together all of the major
is still recovering from both the financial crisis     financial regulators, including the OCC, the
and the recession, much of my time—and that of         FSOC can help close that gap.
the OCC, as well as the other banking financial
industry regulators—is now being devoted to            The legislation also provides a mechanism for
implementation of Dodd–Frank.                          winding down large, systemically important
                                                       bank holding companies and nonbank



                                                                                  Comptroller’s Viewpoint | 3
institutions. This is extraordinarily important                 mission. It is simply not possible for a financial
authority. The prospect of another Lehman-style                 institution to remain healthy if it mismanages
failure, with all of the havoc that resulted in the             customer relationships or engages in abusive
financial markets, is clearly unacceptable. So                  practices. We will now be working with the
it is essential that the federal banking agencies               new consumer bureau to make sure those
have adequate authority to wind down a                          dual objectives of safety and soundness and
systemically important financial institution. At                protection of bank customers are met, and we
the same time, the legislation places restrictions              will work hard to ensure we strike that balance.
on the use of some financial tools that were
used to powerful and positive effect in the broad               All these changes contribute to a challenging
systemic crisis we have just experienced. As it                 environment for banks: The Dodd–Frank
pursues its systemic risk mandate, the FSOC                     requirements coincide with Basel III increases in
must ensure that the tools available are adequate               capital requirements, new laws and regulations
to the challenges ahead.                                        affecting credit cards and interchange fees, and
                                                                weak loan demand in a recovering economy.
Another important element of the legislation                    This leads to fundamental questions about the
is the creation of the Bureau of Consumer                       future of the industry: How will banks and
Financial Protection. This new agency will have                 thrifts fund themselves in the years ahead,
responsibility for writing rules for all financial              what kinds of products will they offer, and,
service providers and for ensuring compliance                   ultimately, how will they earn money? The
at institutions with more than $10 billion in                   answers to these questions will have a profound
assets, so a portion of the OCC’s consumer                      effect on the direction of the U.S. economy.
compliance jurisdiction will migrate to the new
bureau. For the first time, nonbank lenders,                    As supervisors, we at the OCC have always
including mortgage companies and finance                        believed that only if we maintain the industry’s
companies, will be subject to the same kind of                  safety and soundness will banks be in a position
strict regulatory requirements that have always                 to meet the needs of America’s consumers and
applied to banks. As a result, the new bureau has               businesses. Dodd–Frank also mandates very
the opportunity to close a major gap in financial               specific approaches to safety and soundness,
regulation, and that will help to increase                      from banning the use of credit ratings to setting
stability in the system as well as provide for                  risk retention requirements for securitizations.
broader consumer protection.                                    These requirements, too, will significantly affect
                                                                how banks operate and how much credit they
In our banks, we face a challenge in ensuring                   make available.
that the new alignment of regulators strikes
an appropriate balance between consumer                         So, it is important in the first instance that the
protection and safety and soundness. The bureau                 nation’s financial regulators get it right as we
has ultimate authority over consumer protection                 implement these new requirements—that we craft
matters, but this is not an all-or-nothing                      rules that will effectively limit risk in the system
proposition in which either consumer protection                 without unduly restraining credit. However, it
or safety and soundness wins. There will be                     is also important that financial institutions get
occasions when consumer rulemaking will have                    it right as they adjust to the new regulatory and
important implications for safety and soundness.                economic environment. As we interact with
The OCC has always viewed the two issues                        national banks, we are challenging boards and
as inseparable parts of its overall supervisory                 management to do just that.


4 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
The first challenge involves the question              information systems, risk management, and
of strategic direction. How will regulatory            internal audit functions.
change and uncertainty, such as new capital
requirements, the Volcker rule, and concentration      A third question has to do with an institution’s
limits, affect a bank’s risk appetite and ultimately   risk appetite. We want the banks we supervise to
its earnings capacity? Basel III mandates higher       review their risk profile, making sure they have
capital levels and, more significantly, higher         a complete picture of the range of risks they are
quality capital, phased in over time. We aren’t        assuming and that they are comfortable with it.
just raising the Tier 1 capital standard; we are       In doing so, they should review compensation
also setting specific requirements for common          policies to ensure they are striking the right
equity. And despite the good work that so many         balance between generating growth and
banks have done to raise capital by issuing new        managing risk, and they should take steps to
shares, some will have to raise still more, and that   ensure they have the people and the technology
means tough choices with important implications        necessary to provide strong risk management
for the economy. If the bank isn’t going to dilute     and audit coverage.
shareholders further by raising equity in the
                                                       A fourth challenge is the increased importance
market, will it retain more earnings by not raising
                                                       of compliance and operational concerns—
dividends? Or will it grow more slowly or even
                                                       challenges that pose the greatest risk to a
shrink its balance sheet?
                                                       bank’s reputation. Whether it is dealing with
The second challenge involves earnings capacity        the anti-money laundering controls, credit card
in a changing environment. Banks have made             rules, fair lending, or the foreclosure process,
significant strides since the depths of the crisis:    compliance lapses can affect an institution’s
Capital has been restored, reserves bulked up,         reputation in significant ways. And damage to a
and liquidity greatly improved. The question           bank’s name can be very hard to repair.
banks must address now is how to maintain that
                                                       Clearly there is much work ahead to return the
progress, particularly in the face of a sluggish
                                                       banking system and the economy to normal
economy in which loan demand is depressed
                                                       operation. The financial crisis exacted a toll
and problem credits are elevated. Given the
                                                       that was felt by virtually every American, and
ongoing problems many borrowers are facing,
                                                       the job of the OCC and the other financial
we believe bank management should be
                                                       regulators is to do everything in our power to
cautious about decreasing reserves at this point
                                                       guide the system back to health, while creating
in the cycle. Reserves were too low coming into
                                                       the mechanisms to prevent a similar event in
the crisis, and we had to build them aggressively
                                                       the future. I cannot say at this writing how long
at a time of market disruptions and economic
                                                       my term as acting Comptroller will last, but I
distress. That was a painful lesson, and it
                                                       can pledge to use every day of it to move the
produced a decidedly procyclical result.
                                                       national banking system closer to those goals.
In addition, banks cannot assume that
earnings will rebound to prior levels, given
new activity restrictions, limitations on fees,                               John Walsh
and higher capital requirements. There will                                   Acting Comptroller
be more demands and greater expectations                                      of the Currency
from regulators, shareholders, and the public
for increased investment in management


                                                                                 Comptroller’s Viewpoint | 5
                                         THE OFFICE of the
                                         COMPTROLLER
                                         of the CURRENCY
                                         was created on February 25, 1863,
                                         when President Abraham Lincoln
                                         signed the National Currency Act into
                                         law. The Act charged the OCC with
                                         regulating and supervising the new
                                         national banking system. The OCC
                                         still performs those functions today.
                                         Under the Dodd–Frank Wall Street
                                         Reform and Consumer Protection Act
                                         of July 2010, the OCC will assume the
                                         additional responsibility of supervising
                                         federally chartered thrift institutions.




676 || Office
       Office of
              of the
                 the Comptroller
                     Comptroller of
                                 of the
                                    the Currency
                                        Currency || Annual
                                                    Annual Report
                                                           Report || Fiscal
                                                                     Fiscal Year
                                                                            Year 2010
                                                                                 2010
Section One
Year in Review

During fiscal year 2010,1 the OCC continued                    The OCC’s approach to supervision emphasizes
to promote the recovery of the national banking                the importance of adhering to sound banking
system from the worst financial crisis since                   principles, including
the Great Depression. In the course of its
                                                                  • strong corporate governance,
supervisory activities, it encouraged national
banks to address problem assets, strengthen                       • prudent loan underwriting standards,
capital and liquidity, make loans to creditworthy                 • prompt recognition of problem assets,
borrowers, and work constructively with
borrowers facing financial difficulties.                          • sound incentive compensation structures,
                                                                  • effective internal controls and risk
The OCC also played a key role in efforts to                        management, and
improve global and domestic bank supervision
and enhance financial stability. To these ends,                   • compliance with applicable laws and
the OCC worked with Congress to help craft the                      regulations.
Dodd–Frank Wall Street Reform and Consumer                     To achieve its supervisory objectives, the
Protection Act of July 2010,2 and it participated              OCC develops and implements policy
in the deliberations of supervisory organizations              guidance and regulations and conducts on-site
in the United States and abroad, including the                 examinations and off-site monitoring of banks
Joint Forum, the Group of Twenty’s Financial                   to assess compliance with regulatory standards
Stability Forum (FSF) and its successor, the                   and identify emerging risks or trends. When
Financial Stability Board (FSB), the Senior                    deficiencies are observed in bank policies and
Supervisors Group (SSG) of the FSB, and the                    operations, the OCC uses formal and informal
Basel Committee on Banking Supervision.                        enforcement tools to achieve corrective action.




1
    Unless otherwise noted, all references to 2010 refer to
    the fiscal year covered by this Annual Report, beginning
    October 1, 2009, and ending September 30, 2010.
2
    Hereafter in this Annual Report, we refer to this as
    “Dodd–Frank.”


                                                                                      Section One: Year in Review | 7
Supervisory Initiatives                                             complex compensation systems, may not require
                                                                    such detailed procedures.4
In 2010, the OCC issued guidance to strengthen
national banks in four key areas.                                   Interest Rate Risk
                                                                    The Federal Reserve Board’s transition toward
Incentive Compensation                                              a more accommodating monetary policy
The OCC worked with other supervisors across                        helped stimulate economic activity and brought
the globe to establish and implement more                           substantial benefits for borrowers and lenders.
robust principles for sound compensation                            For banks, the low-cost funding environment
practices within the financial industry. The OCC                    also introduced risks, including the possible loss
worked with the FSF to develop “Principles                          of core deposits, increased future funding costs,
for Sound Compensation Practices,” which                            and income reduction.
are intended to apply to “significant” financial
institutions across jurisdictions.3 The FSF                         To ensure that banks understand and control
guidance establishes nine principles designed to                    these risks, the OCC, other federal banking
promote effective governance of compensation,                       agencies, and the Conference of State Bank
proper alignment of compensation with prudent                       Supervisors issued a joint advisory in January
risk taking, and supervisory oversight and                          2010, reminding institutions of supervisory
engagement by stakeholders.                                         expectations regarding sound practices for
                                                                    measuring, monitoring, and managing interest
The OCC worked with other U.S. federal                              rate risk. Ultimately, as the advisory notes,
banking agencies to issue guidance designed                         a bank’s tolerance for interest rate risk is a
to ensure that future incentive compensation                        business decision to be determined by its
arrangements are compatible with effective                          directors and implemented by its managers.
controls and risk management, appropriately tie                     The agencies made clear in their advisory that
rewards to longer-term performance, and avoid                       institutions must have control systems and
creating undue risks. In conjunction with this                      procedures in place to match the amount of
guidance, the OCC and the Federal Reserve                           risk they undertake. Institutions that take on
Board are conducting a coordinated examination                      significant risk require sophisticated models
of compensation practices at multiple financial                     and methodologies. Less complex institutions
firms—a so-called horizontal review—to assess                       require less robust systems. Yet, regardless of
compliance with the guidance.                                       their tolerance for interest rate risk, all banks
                                                                    are required to have comprehensive policies
The OCC’s supervisory approach recognizes that                      and procedures that integrate the interest rate
large banks and smaller institutions have different                 risk implications of significant new strategies,
supervisory needs. The guidance on incentive                        products, and businesses into the interest rate
compensation requires large banks to develop                        risk management process.5
systematic and formalized policies to ensure that
risks and rewards are properly balanced, and it
recognizes that smaller banks, which rely on less
                                                                    4
                                                                        OCC Bulletin 2010-24, “Interagency Guidance on Sound
                                                                        Incentive Compensation Policies,” June 30, 2010, at www.occ
                                                                        .gov/news-issuances/bulletins/2010/bulletin-2010-24.html.
3
    Financial Stability Forum, “FSF Principles for Sound
    Compensation Practices,” 2009, at www.financialstabilityboard   5
                                                                        “Advisory on Interest Rate Risk Management,” January 6,
    .org/publications/r_0904b.pdf. The FSF was renamed the               2010, at www.occ.gov/news-issuances/bulletins/2010
    Financial Stability Board in April 2009.                             /bulletin-2010-1a.pdf.


8 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Off-Balance-Sheet Risks
Under pre-2009 accounting rules, financial
institutions were permitted to move certain
securitized and other assets off their balance
sheets, which in many cases resulted in reduced
regulatory capital requirements. But this practice
led some banks to become undercapitalized
when they came under financial stress during
the recession and previously off-balance-sheet
funding became unavailable.

In 2009, the Financial Accounting Standards
Board (FASB) adopted new rules6 that required
certain financial instruments to be reported on
bank balance sheets. In January 2010, the federal
banking agencies issued capital regulations based                 The 2010 statement recognized how
on, and consistent with, the new FASB rules. The                  significantly the recession had affected financial
net effect of these rules is that banks now have                  markets. Before mid-2007, financial markets
to hold more capital against these previously                     were liquid and funding was readily available at
off-balance-sheet items. The agencies agreed                      relatively low cost. During the recession, funding
to phase in the new rules over a period of four                   sources dried up, causing painful consequences
quarters to mitigate any negative impact on bank                  for the financial system and the economy.
lending and economic activity.7
                                                                  In response, in September 2008, the Basel
Liquidity Risk Management                                         Committee released a statement of “Principles
In March 2010, the federal banking agencies,                      for Sound Liquidity Risk Management and
working with the Conference of State Bank                         Supervision,” 9 drawn from the committee’s study
Supervisors, released an Interagency Policy                       of the financial crisis. These principles include
Statement on Funding and Liquidity Risk
                                                                         • regular stress tests for liquidity risk,
Management.8 The statement summarized the
principles of sound liquidity risk management and                        • use of stress-test outcomes to develop
elaborated on supervisory expectations for U.S.                            contingency funding plans,
banks in corporate governance, strategies and                            • careful monitoring of banks’ cash flow
policies, and risk measurement and monitoring.                             positions, and
                                                                         • projections of future cash flows by bank
                                                                           officers, supervisors, and, aided by
6
    Financial Accounting Statement (FAS) 166. “Accounting for              regular public disclosure, financial market
    Transfers of Financial Assets,” and FAS 167, “Amendments to            participants.
    FASB Interpretation No. 46(R).”
7
    OCC News Release 2010-13, “Agencies Issue Final Rule          Regulatory enhancements adopted by the Basel
    for Regulatory Capital Standards Related to Statements        Committee in July established the first global
    of Financial Accounting Standards Nos. 166 and 167,”
                                                                  standards for bank liquidity.
    January 21, 2010, at www.occ.gov/news-issuances/news
    -releases/2010/nr-ia-2010-6.html.
8
    At www.occ.gov/news-issuances/federal-register
    /75fr13656.pdf.                                               9
                                                                      At www.bis.org/publ/bcbs144.pdf.


                                                                                                 Section One: Year in Review | 9
Monitoring Credit Quality                                          facilitate the application of these principles, the
                                                                   guidance includes examples of common CRE
Monitoring and evaluating the quality of the                       workout transactions and how the appropriate
loans and investments of national banks is                         supervisory treatment may vary depending on
fundamental to the OCC’s supervisory program.                      specific fact patterns.
OCC examiners evaluate asset quality and the
adequacy of a bank’s credit and investment                         Survey of Credit Underwriting Practices
risk management and controls. They determine                       In August 2010, the OCC published its 16th
whether a bank has properly recorded any                           annual Survey of Credit Underwriting Practices
losses associated with its loans or investments                    to identify trends in lending standards and credit
and whether it maintains adequate loan-loss                        risk for the most common types of commercial
reserves. The OCC also monitors systemic                           and retail credit offered by national banks. The
trends and emerging risks that could adversely                     survey provides insight into the factors that may
affect asset quality or the availability of credit                 be affecting banks’ pricing and underwriting
at national banks.                                                 policies and provides the OCC’s view on whether
                                                                   the inherent credit risks in bank portfolios are
Addressing Problems in Commercial                                  increasing or decreasing.
Real Estate Lending
The economic recession highlighted the risks                       The 2010 survey includes examiner assessments
posed by undue asset or liability concentrations                   at 51 of the largest national banks, with assets
in banks’ portfolios. Banks with the heaviest                      of $3 billion or more, representing a total of
concentrations of commercial real estate (CRE)                     $4 trillion in outstanding loans. Overall, OCC
loans—generally, community banks—were                              examiners found a continuation of the trend
especially vulnerable.                                             toward rising credit risk in bank loan portfolios
                                                                   and tighter underwriting standards, although
In October 2009, the OCC and the other federal                     the number of banks that tightened standards
banking agencies adopted guidance for use by                       declined slightly.
bank examiners and national banks to promote
constructive and consistent resolution of troubled                 For the first time in three years, the survey
CRE loans. The agencies pointed out that                           reported a modest easing of credit standards in
deterioration in the financial condition of CRE                    select product categories, as banks responded
borrowers did not automatically render them less                   to renewed competitive pressures. This trend
creditworthy, if there was evidence of willingness                 suggests credit availability may generally
and capacity to repay debt. The guidance further                   improve in the months ahead.
affirmed that renewed or restructured loans to
                                                                   Shared National Credits Review
borrowers who have the ability to repay their
debts according to reasonable modified terms                       Shared National Credits, often referred to as
will not be subject to adverse classification                      syndicated loans, are loan commitments of
by examiners solely because the value of the                       $20 million or more held by multiple federally
underlying collateral has declined to an amount                    supervised financial institutions. Each year
that is less than the loan balance.10 To help                      since the Shared National Credit Program began
                                                                   in 1977, the OCC and other federal banking
10
     Federal Financial Institutions Examination Council, “Policy
     Statement on Prudent Commercial Real Estate Loan
     Workouts,” October 30, 2009, at www.ffiec.gov/guidance
     /cre103009.pdf.


10 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
agencies11 have reviewed a sample of those                          are serious and well documented, however,
loans across the banking system to determine                        enforcement action may be warranted.
       • how well those loans are underwritten,                     The OCC uses a range of enforcement tools to
       • how much credit risk they represent,                       direct necessary corrective actions, including
                                                                    cease-and-desist orders, removal or prohibition
       • how accurately banks are assigning risk
                                                                    orders, civil money penalties, and formal
         ratings, and
                                                                    agreements. Statistics on OCC enforcement
       • whether the banks are in compliance                        actions in 2010 are presented in section five
         with loan classification rules.                            of this Annual Report.

In 2010, Shared National Credit commitments                         Despite comprehensive supervisory oversight,
totaled about $2.5 trillion, a 12.6 percent decline                 30 national banks failed in 2010, compared with
from 2009 levels. The banking agencies reviewed                     13 in 2009. The increase in bank failures reflected
approximately $1 trillion of those commitments.                     the adverse economic climate, which especially
Eighteen percent were criticized,12 a decrease of                   affected financial institutions with excessive asset
more than 30 percent from record levels reported                    concentrations (particularly in commercial real
last year, with the improvement in credit quality                   estate) and an inordinate reliance on non-core
especially notable in the automotive, materials and                 funding, especially brokered deposits.
commodities, and finance and insurance sectors.
The severity of the criticism also declined, as                     Under the provisions of the Federal Deposit
credits classified as “doubtful” or “loss” decreased                Insurance Corporation Improvement Act of 1991,
by 56.4 percent.                                                    the OCC seeks to resolve insolvent institutions at
                                                                    the lowest possible cost, minimizing the impact
Resolving Problem Banks                                             on customers and on the deposit insurance fund.
The goal of OCC supervision is to identify and                      To that end, in 2010 the OCC made the first use
correct potential issues at an early stage, before                  of the “shelf charter,” a new mechanism that
they adversely affect the safety and soundness                      involves the granting of preliminary approval
of the banking system or the viability of any                       to investors for a national bank charter. The
individual bank. Nonetheless, the financial                         charter remains inactive, or “on the shelf,” until
crisis brought an increase in the number of                         such time as the investor group is in a position
problem banks that required more intensive                          to acquire a troubled institution. By granting the
supervisory attention. When a national bank’s                       preliminary approval of shelf charters, the OCC
condition is impaired, the OCC develops a plan                      expanded the new equity capital available to
that considers the ability and willingness of                       bid on troubled institutions through the FDIC’s
the bank’s management and board of directors                        bidding process.13
to correct deficiencies in a timely manner and
return the bank to a safe and sound condition.
Most banks subject to heightened supervisory
attention can be rehabilitated. When problems
11
     The other federal banking agencies are the Federal Reserve,
                                                                    13
                                                                         OCC News Release 2010-8, “OCC Approves First Use of
     the Federal Deposit Insurance Corporation (FDIC), and the           ‘Shelf Charter’ to Acquire Failed Bank,” January 22, 2010, at
     Office of Thrift Supervision (OTS).                                 www.occ.gov/news-issuances/news-releases/2010/nr
                                                                         -occ-2010-8.html, and OCC News Release 2010-82, “OCC
12
     A “criticized” loan is one with compromised repayment               Approves Use of Second Shelf Charter to Acquire Three
     prospects. Loans are subject to varying degrees of criticism        Failed Banks,” July 16, 2010, at www.occ.gov/news
     by examiners.                                                       -issuances/news-releases/2010/nr-occ-2010-82.html.


                                                                                                    Section One: Year in Review | 11
Promoting Credit Availability
to Creditworthy Borrowers
The market turmoil of 2008–2009 led to a
dramatic contraction in credit availability. Even
after the most acute phase of the crisis ended,
credit continued to be sluggish in 2010, with wary
lenders and weak loan demand from businesses
and consumers who were more focused on
liquidating the debt already on their books.
One critical category, small loans to farms and
businesses, dropped by more than $12 billion,                    The American Recovery and Reinvestment Act
or 4.3 percent, in the four quarters ending on                   of 2009 brought important changes to several
June 30, 2010. The loan portfolios of the largest                crucial loan-guarantee programs administered
national banks registered the sharpest declines.                 by the Small Business Administration (SBA).
                                                                 For example, the SBA’s flagship 7(a) program,
In 2010, lending to small business was a matter                  which provides guaranteed financing for a
of concern for bank regulators, due to the crucial               variety of general business purposes, was
role that small business plays in the nation’s job               enhanced to eliminate some fees and raise
creation and its traditional dependence on bank                  guarantee levels, while the SBA’s 504 program
lending. To improve the quality and timeliness                   for long-term fixed assets was extended to
of data available on small-business lending, the                 permit some refinancing of other debt.
OCC and the other federal banking agencies
began requiring banks to report small-business                   The OCC worked to inform lenders about
lending quarterly rather than annually. This                     these changes and to encourage lenders to
change enables the agencies to better track                      take advantage of them. A Web and telephone
credit flows throughout the business cycle.                      seminar on small business lending, organized by
                                                                 the OCC’s Banking Relations Division, attracted
In addition, supervisory guidance during the year                hundreds of bankers, and OCC examiners and
encouraged prudent small business lending.                       staff members from the agency’s Community
A February 2010 interagency statement reminded                   Affairs Department gave presentations on these
bankers to understand the long-term viability of a               programs at banker conferences. The OCC’s
borrower’s business and not automatically refuse                 Community Developments newsletter devoted its
credit to sound borrowers simply because of the                  spring 2010 issue to exploring ways for banks to
borrower’s industry or location. The agencies                    take advantage of these and other opportunities
affirmed that loans to small business would not                  to promote small-business growth and
be adversely classified by bank examiners when                   community development under provisions of
they were provided in accordance with the sound                  the Recovery Act. A second Web and telephone
underwriting and risk management practices                       seminar, focusing on how community banks can
spelled out in the statement.14                                  use SBA loan programs and the Export–Import
                                                                 Bank of the United States to support small-
                                                                 business exporters, was developed for delivery
14
     OCC News Release 2010-14, “Regulators Issue Statement       early in fiscal year 2011.
     on Lending to Creditworthy Small Businesses,” February 5,
     2010, at www.occ.gov/news-issuances/news-releases/2010
     /nr-ia-2010-14.html.


12 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Compliance Initiatives                                both compliance and safety and soundness risks.15
                                                      In August 2010, the OCC and other federal
Bank compliance with provisions of the fair           banking agencies issued supervisory guidance
lending laws, the Community Reinvestment              on managing these risks. The guidance stresses
Act (CRA), and other consumer-related laws and        the need for lenders to provide consumers
regulations constitute a major focus of the OCC’s     considering such products with adequate
supervisory and enforcement program. The agency       information and counseling. Financial institutions
also conducts multifaceted programs to promote        offering reverse mortgages will be required to
financial literacy and education, consumer            report on the volume of such mortgages that they
awareness, and community development.                 hold or have originated and sold during the year
                                                      and the volume of referrals they made to other
Fair Lending
                                                      lenders for a fee for such products.
The OCC examines national banks for
compliance with laws prohibiting discrimination       Safeguarding Personal Information
in mortgage lending on the basis of race, color,      In April 2010, the OCC and other federal
national origin, sex, familial status, or physical    banking regulators released a model privacy
disability. Every national bank undergoes             notice form designed to safeguard the privacy
rigorous analysis of its procedures and systems       of consumers and an online tool that financial
to ensure that the institution meets the letter and   institutions can use to customize the form to suit
the spirit of the fair lending laws.                  their individual needs. These new instruments
                                                      were the product of a multiyear effort that
In 2010, the OCC enhanced its fair lending            involved extensive consumer research, testing,
supervision. The agency implemented a                 and public review and comment.
revised screening process for fair lending risk
at large banks, using a new process for data          The actions stem from the OCC’s
collection and analysis that would identify           responsibility for oversight of how financial
potential risks in a more timely and effective        institutions comply with the provisions
manner. The agency also published an updated          of the Gramm–Leach–Bliley Act of 1999
Comptroller’s Handbook booklet on fair                governing information sharing. That law
lending, giving bankers and examiners updated         requires banks to notify consumers of the
guidance on how to evaluate loan pricing,             institutions’ information-sharing practices
broker activity, redlining violations, and illegal    and inform consumers of their right to
steering of borrowers to higher cost loans.           opt out of certain sharing practices. Later
                                                      legislation required the OCC and the other
Reverse Mortgages
                                                      federal banking agencies to develop succinct
Reverse mortgages, which provide homeowners           and comprehensible model forms that allow
age 62 or older with payments based on the            consumers to easily compare the privacy
value of their homes, have become increasingly        practices of different financial institutions.
popular. In September 2009, the OCC advised
that this relatively new product, which sometimes
has been characterized by high fees, misleading
marketing claims, and cross-selling abuses, posed

                                                      15
                                                           For a discussion of reverse mortgages, see the OCC’s Annual
                                                           Report Fiscal Year 2009, p. 16, at www.occ.gov/static
                                                           /publications/annrpt/2009AnnualReport.pdf.


                                                                                     Section One: Year in Review | 13
                                                                Consumer Enforcement Actions
                                                                The OCC may take formal and informal
                                                                enforcement actions against national banks
                                                                determined to be in violation of consumer
                                                                protection laws and regulations. In 2010,
                                                                the OCC took action against two offending
                                                                banks that resulted in the imposition of large
                                                                penalties and restitution.

                                                                In February 2010, the agency reached agreement
                                                                with Capital One Bank, N.A., of Glen Allen,
                                                                Virginia, and directed it to provide redress to
                                                                customers harmed by the bank’s credit-card
                                                                account-closing practices. The practices in
                                                                question occurred from 2004 to 2006, before
                                                                Capital One became a national bank subject
                                                                to OCC supervision. The practices cited in the
                                                                settlement involved the bank’s assessment of
                                                                annual membership fees on accounts with no
                                                                outstanding balance owed, after customers had
                                                                requested that the accounts be closed. In the
Bank Secrecy Act Enforcement
                                                                settlement with the OCC, the bank agreed to
The Bank Secrecy Act (BSA) requires financial                   reimburse consumers in the amount of $775,000.16
institutions to assist in the effort to detect
and prevent money laundering and assigns                        In the second case, in April 2010, the OCC
responsibility for oversight of BSA compliance                  directed T Bank, N.A., of Dallas, Texas, to
by national banks to the OCC. In 2010,                          provide restitution totaling $5.1 million to more
the OCC continued to make its anti-money                        than 60,000 customers adversely affected by its
laundering (AML) and BSA enforcement                            account relationships with a third-party payment
program more effective.                                         processor and several telemarketers and Internet
                                                                merchants. The practices involved the use of
In April 2010, the federal banking agencies                     remotely created checks (RCC), which are checks
issued a revised examination manual that                        not created or signed by the accountholder.
incorporated regulatory changes since 2007,                     Instead, the signature block of the check includes
including a new section on bulk currency                        such text as “authorized by your depositor, no
shipments and updates relating to electronic cash,              signature required.” The OCC found that nearly
third-party payment processors, and Automated                   60 percent of these RCCs were returned to the
Clearing House transactions. The OCC also                       bank by individuals or their financial institutions,
refined its existing Money Laundering Risk                      who said they had not authorized the checks
System to help community banks identify—and                     or had not received the products or services
take steps to address—their BSA/AML risks.                      promised by the merchant.

                                                                16
                                                                     OCC News Release 2010-16, “OCC Reaches Agreement
                                                                     with Capital One on Unfair Credit Card Account Closing
                                                                     Practices,” February 18, 2010, at www.occ.gov/news
                                                                     -issuances/news-releases/2010/nr-occ-2010-16.html.


14 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
As part of the settlement with the OCC, the
bank, in addition to its restitution to consumers,
agreed to pay a civil money penalty of $100,000
to the U.S. Treasury and to develop new policies
and procedures governing RCCs.17


Consumer Protection and
Financial Literacy Initiatives
In September 2010, in a statement accompanying
the release of the U.S. Department of the                      Congressional staff members learn more about the OCC’s efforts
                                                               to promote financial literacy.
Treasury’s draft National Strategy for Financial
Literacy, Secretary of the Treasury Timothy F.                 Accounts) and school savings programs for
Geithner noted that “the recent financial crisis               children, and by sponsoring in-bank workshops
taught us an enduring lesson. Financial literacy               on asset building and credit management.
is essential not only to the financial security of
millions of American families, but also to the                 The OCC and other financial regulators are
economic health of our nation as a whole.”                     uniquely positioned to assist in the financial
                                                               literacy effort because their representatives
A broad coalition of state, national, and                      interact directly with banks and with bank
local organizations is working to provide the                  customers through the complaint intake and
information Americans need to make sound                       resolution process. The OCC reaches out to
financial decisions. The President’s Advisory                  consumers through its program of formal
Council on Financial Capability, the Treasury                  alerts and advisories as well as its participation
Department’s Office of Financial Education, and                with other federal agencies in such events
the Financial Literacy and Education Commission                as America Saves Week each February and
created by Congress provide high-level visibility              Financial Literacy Day on Capitol Hill. The
and direction. Nonprofit organizations, such as the            OCC operates a consumer-focused Web site,
Council for Economic Education, the Consumer                   HelpWithMyBank.gov, conducts print and
Federation of America, and the JumpStart                       electronic media campaigns, and works directly
Coalition for Personal Financial Literacy, conduct             with individual bank customers through its
surveys, produce and distribute educational                    Customer Assistance Group.
materials, and help mobilize the resources of the
private sector to support the goal of a nation in
which every citizen understands the basics of
saving and budgeting.

National banks play an important role in this
nationwide effort by working with nonprofit
groups to promote savings-match programs
(also known as Individual Development

17
     OCC News Release 2010-45, “OCC, T Bank Enter Agreement
     to Reimburse Consumers,” April 19, 2010, at www.occ.gov
     /news-issuances/news-releases/2010/nr-occ-2010-45.html.


                                                                                           Section One: Year in Review | 15
Customer Assistance Group                                            • the merger or conversion of several major
The OCC’s Customer Assistance Group                                     financial institutions, with their millions
facilitates communication between national                              of customers, into the national banking
banks and their customers and provides a                                system; and
mechanism for resolving consumer complaints                          • the success of OCC efforts to build public
relating to banking laws and regulations.                               awareness of the remedies available for
                                                                        dispute resolution between banks and
As shown in Figure 1, the Customer Assistance                           their customers.
Group has registered large increases in the
number of consumer complaints in recent years.                  To cope with the increased demand for its
A number of factors may have contributed to the                 services, the Customer Assistance Group made
increase, including                                             improvements to its systems and procedures.
                                                                It implemented an online complaint form,
    • the financial stress facing households                    which speeds processing times. It created
       and businesses;                                          the Complaint Referral Express system so
    • rising mortgage problems, which in the                    that complaints mistakenly forwarded to the
      third quarter of 2010 were the subject                    OCC can be redirected more quickly to the
      of the largest number of complaints to                    appropriate state or federal banking agency
      Customer Assistance Group, for the first                  for processing. And it reoriented its priorities
      time overtaking credit card issues;                       to ensure that complaints related to mortgage
                                                                restructuring, which are especially time
                                                                sensitive, receive the attention they require to
                                                                facilitate resolution.




16 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Outreach: Bringing Financial Literacy
Into America’s Households
When the OCC’s supervisory or complaint-
handling activities discover practices that pose
particular risks for bank customers, the agency
often issues a consumer advisory or alert. For
example, on the eve of the 2009–2010 holiday
buying season, the agency released its annual
reminder encouraging consumers to read the
fine print on gift cards to avoid unexpected fees
or usage restrictions.
                                                    Then-Comptroller John C. Dugan greets a woman during his tour
                                                    of community development projects in San Francisco.
The OCC’s public service program delivers
messages to consumers through the national          recently, Dodd–Frank sought to encourage
media. In 2010 the OCC issued four public           public welfare investment by specifically
service announcements—on overdraft                  exempting it from legal restrictions on private
protection, refund anticipation loans,              equity investment by national banks.
protection of tenants living in foreclosed
properties, and gift cards.                         In 2010, the OCC emphasized opportunities
                                                    for meaningful and profitable community
Community Development                               development involvement by national banks.18
Since the 1960s, when OCC regulations began         In November 2009, then-Comptroller John C.
to encourage the practice, national banks have      Dugan conducted a tour of successful projects
provided billions of dollars in investments         in San Francisco, such as an “incubator kitchen”
to distressed communities across the nation.        for training and developing food entrepreneurs.
Federal programs support these initiatives          In March 2010, the OCC co-sponsored the
through tax credits and other incentives to         National Interagency Community Reinvestment
expand low-income housing and social services,      Conference in New Orleans, attended by more
attract new industry and small business, promote    than 700 representatives from the regulatory
renewable energy, and rehabilitate historic         agencies, financial institutions, and nonprofit
buildings in these communities. For their part,     organizations. During the four-day conference,
financial institutions benefit from the business    attendees came together to deepen their
opportunities that arise from more vibrant          understanding of how CRA works and to
communities and more prosperous customers.          share best practices. During the year, the OCC
These activities may also qualify national banks    also published two Community Developments
for favorable consideration under the CRA.          Investments newsletters that discussed the types
                                                    of public welfare investments that national
The economic slowdown threatened to derail          banks have made in small business, affordable
this progress by hampering banks’ ability to        housing, and other community and economic
lend and reducing the income against which tax      development initiatives—examples the OCC
credits can be applied. In response, Congress       hopes other lenders might emulate.
revamped some programs, substituting direct
subsidies for tax credits (to revive investment
in low-income housing) and changing the rules       18
                                                         Speech by John C. Dugan, International Economic
to make those credits more valuable. Most                Development Council, April 20, 2010, at www.occ.gov/news
                                                         -issuances/speeches/2010/pub-speech-2010-47a.pdf.


                                                                                  Section One: Year in Review | 17
At the same time, the OCC worked to make the                    The OCC participated with the other federal
CRA regulations more flexible and responsive                    bank regulators in four joint public hearings
to changes in the financial services industry,                  during the summer of 2010 to gather public
changes in how banking services are delivered to                comments on modernizing the CRA regulations.
consumers, and current housing and community                    The daylong hearings, held in Arlington,
development needs. The original CRA rules                       Virginia; Atlanta; Chicago; and Los Angeles,
required banks to demonstrate that CRA-qualified                attracted approximately 140 witnesses from
community development investments benefited                     a diverse group of individuals and agencies
the bank’s assessment area—generally, the                       representing the nonprofit, public, and private
community in which the bank takes deposits.                     sectors. Written public comments also were
Over the years, the agency broadened the rules                  solicited. Acting Comptroller John Walsh
to expand CRA-eligible activities for out-of-area               chaired the August 19, 2010, Los Angeles
banks when needed, for example, in the aftermath                hearing, which heard from more than 40
of Hurricanes Katrina and Rita in 2005.                         witnesses. As a result of these hearings,
                                                                the OCC received more than 1,400 written
In 2010, the banking agencies adopted a new                     comments on revising the CRA regulations.
rule under which they will provide favorable
CRA consideration for low-cost higher education
loans to low-income borrowers. To promote                       Toward the Future:
community development activities in areas
where foreclosure and housing abandonment are
                                                                Basel III and Dodd–Frank
especially problematic, they proposed a rule that               The return of more stable financial markets
would provide favorable CRA consideration for                   shifted attention to determining what had
certain activities conducted under the auspices                 gone wrong systemically and what steps need
of the Neighborhood Stabilization Program,                      to be taken to avoid future crises. To that
administered by the U.S. Department of Housing                  end, Congress created a bipartisan Financial
and Urban Development.                                          Crisis Inquiry Commission with a mandate
                                                                to produce a comprehensive report by
                                                                December 2010. Then-Comptroller Dugan and
                                                                former Comptroller John D. Hawke Jr. were
                                                                among the witnesses who testified before the
                                                                commission in 2010.19

                                                                The OCC is committed to learning from recent
                                                                experience as it reconsiders its own policies and
                                                                practices. As Senior Deputy Comptroller and
                                                                Chief National Bank Examiner Timothy W. Long
                                                                said, the “perspective of the recent past offers
                                                                invaluable insights we can and should use as
Acting Comptroller John Walsh joins other federal regulators
in Los Angeles at a public hearing on the Community
                                                                we implement Dodd–Frank and various other
Reinvestment Act.

                                                                19
                                                                     Statement of John C. Dugan, Financial Crisis Inquiry
                                                                     Commission hearing, April 8, 2010, at www.fcic.gov/hearings
                                                                     /pdfs/2010-0408-Dugan.pdf; Statement of John D. Hawke Jr.,
                                                                     April 8, 2010, at www.fcic.gov/hearings/pdfs/2010-0408
                                                                     -Hawke.pdf.


18 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
regulatory and policy initiatives.”20 In his final
speech before leaving the Comptroller’s office
in August 2010, Mr. Dugan posed the tough
questions that were on many people’s minds:
“Did we fail to learn from our past mistakes, or
did we take the wrong measures to address those
mistakes?” he asked. “And what makes us think
that the measures we’re taking now will have
any better success in the future?” 21

An accounting of the history of the crisis
from a bank regulatory standpoint reveals
both successes and failures. The OCC took
                                                                  Then-Comptroller John C. Dugan joins in congratulating
action early on to flag the risks inherent in                     President Obama upon the signing into law of the Dodd–Frank
rising concentrations of commercial real estate                   Wall Street Reform and Consumer Protection Act of 2010.

loans, and it was first among the regulatory
                                                                  individual agencies and collectively across
agencies to warn about the danger to holders
                                                                  jurisdictions. Regulatory guidance on CRE
of “nontraditional” mortgages in the event
                                                                  concentrations did not prevent some banks
that mortgage rates rose and property values
                                                                  from compiling construction and development
declined. The OCC’s policies kept the
                                                                  loans to a degree that eventually overwhelmed
origination of predatory forms of subprime
                                                                  them. Some financial providers, ranging
lending largely outside the national banking
                                                                  from storefront mortgage originators to giant
system. The Troubled Asset Relief Program
                                                                  Wall Street investment firms, took advantage
(TARP), which the OCC helped administer,
                                                                  of inconsistent regulatory requirements for
helped stabilize the financial system. The OCC
                                                                  different types of institutions. Accounting
was also deeply involved in the Supervisory
                                                                  rules made it more difficult for banks to build
Capital Assessment Program (SCAP), which
                                                                  sufficient loan-loss reserves. And for some
marked a turning point in the financial crisis.
                                                                  banks, capital proved inadequate to the stresses
SCAP’s high-profile “stress tests” proved to
                                                                  they eventually faced, and early intervention
the satisfaction of the financial markets that the
                                                                  permitted under the Prompt Corrective Action
nation’s largest banks had sufficient capital to
                                                                  provisions of the Federal Deposit Insurance
withstand an economic scenario that was even
                                                                  Corporation Improvement Act of 1991 proved
worse than expected.22
                                                                  insufficient to stop failures or losses to the
But the record shows that the nation’s bank                       insurance fund.
regulators could have done more, both as
                                                                  To address the capital and liquidity
                                                                  shortcomings exposed by the financial market
20
     Speech by Timothy W. Long, American Institute of CPAs’
     National Conference on Banks and Savings Institutions,       upheaval, the Basel Committee on Banking
     September 14, 2010, at www.occ.gov/news-issuances            Supervision adopted a set of regulatory
     /speeches/2010/pub-speech-2010-108.pdf.                      enhancements that has come to be known
21
     Speech by John C. Dugan, Exchequer Club, July 21, 2010,      as Basel III. This new agreement, which
     at www.occ.gov/news-issuances/speeches/2010/pub
                                                                  supplements some provisions of the Basel
     -speech-2010-84a.pdf.
                                                                  Accords of 1988 and 2004 and supplants
22
     Speech by John C. Dugan, Federal Reserve Bank of Richmond
     2010 Credit Markets Symposium, April 15, 2010, at www.occ
                                                                  others, refines the definition of regulatory
     .gov/news-issuances/speeches/2010/pub-speech-2010-42a.pdf.


                                                                                              Section One: Year in Review | 19
capital to emphasize the importance of common                   The OCC will be represented on a new body,
equity, the most loss-absorbing kind of capital.                the Financial Stability Oversight Council
The Basel III agreement more appropriately                      (FSOC), whose mission is to promote market
addresses certain categories of risk that were                  discipline and respond to emerging threats to
highlighted by the recent financial crisis and                  the stability of the U.S. financial system. And
establishes global minimum liquidity standards.                 under Dodd–Frank the OCC’s responsibilities
It also creates the first international leverage                for consumer protection in large national banks,
(that is, non-risk-weighted) ratio requirements                 and some of the people who carry them out,
and includes strong treatment for derivatives                   will migrate to the new Bureau of Consumer
and off-balance-sheet items. The Basel                          Financial Protection.23
Committee agreed that implementation of the
new requirements would begin in 2013, with
the full framework to be phased in by 2019. The
Basel III agreement will serve as a foundation
for forthcoming rulemakings to implement these
changes in the United States.

The Dodd–Frank legislation addressed many
of the structural problems revealed by the
financial crisis. The legislation will affect the
financial services industry in a profound way,
and it has already had a major impact on the
OCC. The agency consulted extensively with
congressional staff during the development of                   In testimony before the Senate Committee on Banking, Housing
the legislation and is tasked under its provisions              and Urban Affairs, Acting Comptroller John Walsh discusses
to draft rules, both jointly and in coordination                Dodd–Frank implementation activities and the Basel III agreement.

with other agencies. The topics subject to
Dodd–Frank rulemaking include                                   The OCC faces major challenges in implementing
                                                                the many new rules and organizational
    • regulatory capital,
                                                                arrangements instituted by Dodd–Frank. As it
    • permissible proprietary trading,                          helps build the future framework for regulation,
    • hedge fund and private equity                             the agency will rely on the talent, expertise,
      fund investments,                                         judgment, and dedication of the staff who
                                                                helped the national banking system withstand
    • margin requirements for derivatives,                      the worst crisis since the Great Depression.
    • executive compensation, and
    • real estate appraisals.

The OCC also faces the task of integrating into
its organization and operations the personnel,
property, and systems of the OTS, which was
abolished under Dodd–Frank. On July 21, 2011,
the OTS and the majority of its staff of dedicated
                                                                23
                                                                     Testimony of John Walsh, Acting Comptroller of the Currency,
public servants will be integrated into the OCC.                     September 30, 2010, at www.occ.gov/news-issuances
                                                                     /congressional-testimony/2010/pub-test-2010-119-written.pdf.


20 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Section Two
The OCC in America’s
Communities

Coping With Foreclosure                               such experts as Mr. Lewis seemed to make a
                                                      difference, and some attendees told him “they
HOPE NOW is a national coalition of lenders,          appreciated being heard by bankers.”
financial regulators, and nonprofit housing
and counseling agencies working to mitigate           In talking to homeowners in Los Angeles and
the impact of the national recession on               throughout the country, OCC staff highlighted
homeowners. One recent HOPE NOW event                 the risk of dealing with third parties who say
co-sponsored by the OCC in Los Angeles gave           they want to help but who are really interested
hundreds of homeowners information about              in helping themselves. All too often, they don’t
government programs designed to help avoid            deliver what they promise. “The best place for
foreclosure and an opportunity to communicate         getting answers on how to save your house is
directly with mortgage servicers.                     the same place you make your payments,” says
                                                      Mr. Lewis. “If you don’t talk to the bank, you
Such communication is crucial. Surveys show           might wind up talking to scam artists.” He tells
that roughly 50 percent of borrowers who go           homeowners to think twice before accepting an
into foreclosure have never been in touch with        offer from someone promising to negotiate a
their mortgage lender. “That’s unfortunate,”          loan modification or foreclosure abatement in
says Barry R. Wides, the OCC’s Deputy                 exchange for upfront fees.
Comptroller for Community Affairs, “because
more than one-third of those who do reach
out for assistance are successful in finding
alternatives to foreclosure. The sooner they talk
to someone, the more likely it is that foreclosure
can be avoided.”

Community Affairs Officer David Lewis
represented the OCC at the Los Angeles event,
and he saw how much of a lift it provided to
distressed homeowners. “When the individuals
                                                      OCC representatives collaborate with event participants and
or families first came in, they’d stop by the OCC
                                                      sponsors during a HOPE NOW workshop.
table,” he recalls. “They were pretty down.”
Just being able to talk about their situations with



                                                            Section Two: The OCC in America’s Communities | 21
In addition to sponsoring HOPE NOW                              data on more than 30 million loans held or
conferences, the OCC, banks, and nonprofit                      serviced by large national banks and thrifts
groups have created foreclosure prevention task                 and then publish the data quarterly in the OCC
forces, which hold community outreach fairs,                    and OTS Mortgage Metrics Report. The report
coordinate foreclosure prevention counseling,                   has become one of the financial industry’s
and place print and radio advertisements to                     primary sources for data on home mortgage
reach out to people facing foreclosure. The                     performance, foreclosures, and the effectiveness
banks also train nonprofit counselors in how                    of loan modifications.
best to work with banks to resolve troubled
loans and help borrowers keep their homes.                      The report issued at the end of September 2010
                                                                showed a welcome trend toward stability in the
On the supervisory side, the OCC promotes                       credit quality of first-lien mortgages. As of June
constructive workout arrangements between                       30, 2010, the mortgage delinquency rate held at
lenders and homeowners. Since the beginning                     approximately the same level as in the previous
of the market turmoil, OCC examiners have                       quarter. Although completed foreclosures
encouraged national banks to work with                          were up, newly initiated foreclosures were
delinquent borrowers to restructure problem                     down. Moreover, mortgage modifications
loans, giving stressed borrowers more time and                  increased, and an increasing number of recent
flexibility to resolve their obligations. The OCC               modifications, which decreased borrowers’
also joined other federal banking agencies in                   monthly principal and interest payments,
issuing a final rule providing that mortgage loans              performed better than earlier modifications.
restructured under the Treasury Department’s
Home Affordable Modification Program (HAMP)                     “Shining a bright spotlight on high re-default
will generally retain the risk-based capital weight             rates through OCC–OTS mortgage metrics data
appropriate to the loan prior to modification.                  resulted in real improvements in the quality
                                                                of more recent loan modifications by creating
When mortgage restructuring is not feasible,                    an emphasis on affordable and sustainable
however, lenders may have no choice but to                      monthly loan payments since we began tracking
foreclose on the property. In such cases, the                   that data in late 2008,” says Joseph Evers, the
OCC expects national banks to abide by all                      OCC’s Deputy Comptroller for Large Banks.
applicable state and federal laws governing                     “Better-performing loan modifications mean
documentation and by their own procedures.                      fewer foreclosures, more families keeping their
At the end of the year, the agency began an                     homes, and less risk of loss deferral.”
examination of large mortgage servicers’
foreclosure practices to ensure that these                      Imbalances in the U.S. housing market will take
requirements were being met.                                    a long time to be resolved. In the meantime, the
                                                                OCC is working hard to mitigate the impact of
To better illuminate positive and negative trends               foreclosures on homeowners and communities
in the nation’s critical housing market, the                    and to hasten the full recovery of this crucial
OCC and the OTS compile detailed, consistent                    sector of the national economy.




22 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
The OCC en Español                                 The first product of the new partnership,
                                                   “Conozca la OCC” (Meet the OCC),
More than 35 million Americans speak Spanish       introduced the Univision audience to the
as their primary language. In 2010, the OCC        agency, describing its mission and its
reached out to provide expanded bilingual access   commitment to providing consumers with
to its services. Spanish-speaking agents are       financial information and support. Subsequent
now available to assist bank customers who call    video public service announcements dealt
the Customer Assistance Group, and Spanish-        with such key consumer issues as gift cards,
language versions of consumer-complaint forms      check fraud, reverse mortgages, and new rules
are available on occ.gov. The “Frequently Asked    governing credit cards.
Questions” section of HelpWithMyBank.gov
is available in Spanish, and the OCC’s public      It is too soon to quantify the benefits of this
service announcements are now routinely            initiative for consumers. But both the OCC and
released in both English and Spanish.              Univision take great pride in bringing financial
                                                   literacy information directly into millions of
The OCC’s office of External Outreach and          Spanish-speaking homes.
Minority Affairs, which operates within the
Public Affairs Department, has had longstanding
ties with Spanish-language media outlets in the
Washington, D.C., area. In 2010, this outreach
became national in scope when the OCC entered
a partnership with Univision Communications,
the largest Spanish-language media company
in the United States. Together, they launched a
financial education campaign aimed at Spanish-
speaking consumers—consumers who, as
External Outreach and Minority Affairs Senior
Adviser Glenda Cross points out, “may not
necessarily subscribe to the traditional media
outlets that the OCC has used.”




                                                   The Spanish-language version of an OCC Consumer Advisory
                                                   on reverse mortgages.




                                                        Section Two: The OCC in America’s Communities | 23
Responding to Crisis                                            Since their founding in 1863, the OCC and
                                                                the national banking system have supported
For the people of the Gulf Coast, the Deepwater                 the United States and its communities in time
Horizon oil spill was an economic as well as                    of crisis. After World War II, Comptroller
an environmental disaster. The local energy,                    Preston Delano reported to Congress that “the
fishing, and tourism industries and the millions                national banks of the United States contributed
who depend on them suffered major losses.                       generously and efficiently to the war effort.
                                                                Despite depleted staffs, they successfully
Once the scope of the disaster became clear,                    shouldered the heavy burden placed upon
the OCC joined with other financial regulatory                  them in connection with the financing of the
agencies to encourage banks to help their                       production of war materials and in spearheading
customers cope with the disruption to their                     the Government’s bond drives.”
lives. Recognizing that people suddenly cut off
from their income might well need access to
emergency funds, the guidance recommended
that banks consider waiving fees and penalties
for early withdrawal of savings. It also
encouraged expedited lending decisions, the
restructuring of debt obligations, and the easing
of credit terms or fees for loans to certain
borrowers, consistent with prudent banking
practice. In response, national banks serving the
Gulf Coast region set aside emergency reserves,
delayed action against overdue borrowers,
and helped disburse aid funds to those                          And in the aftermath of the tragedies of
harmed by the spill.                                            September 11, 2001, national banks went to
                                                                extraordinary lengths to meet their customers’
It was not the first time in recent memory                      needs for cash and other essential banking
that the people of the Gulf Coast have borne                    services. For a people shaken by terrorist attack,
the brunt of disaster. In 2005, New Orleans                     the symbolic importance of a national banking
and nearby communities were devastated by                       system “still standing, still functioning, still
Hurricane Katrina. Many banks were closed                       capable of delivering virtually any service on
by the flooding. But bank personnel set up                      September 11 that it offered on September 10,”
temporary facilities elsewhere and worked day                   as then-Comptroller John D. Hawke Jr. put it,
and night to assist in the recovery of distressed               was incalculable.
customers and their communities.




24 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Community Banks Keep                                 not make excessive real estate loans, either. “We
                                                     don’t loan for more than the property is worth,”
America Working                                      says the director. “Or lend to borrowers with
Somerville, in the southwestern corner of Ohio, is   sub-par credit.” The prudent approach has paid
a town of about 300 people, most of whom work        off: The bank has lower operating expenses and
in the construction trades and health care. The      fewer loan losses than most other banks of its
whole town covers less than a third of a square      size and type.
mile. As late as the 1980s, the national bank in
                                                     The roots of community banking run deep in
Somerville ranked among the smallest 1 percent
                                                     every corner of America, providing two-thirds
of all nationally chartered banks in America.
                                                     of all loans to small businesses. Community
But the little community bank recently received      banks offer a special brand of personalized
a rare national honor. On September 28, 2010,        service that makes customers feel at home. As
the Comptroller of the Currency gave the             small businesses themselves, community banks
Somerville National Bank a certificate               are well situated to understand the needs of
“in recognition of the bank’s 100 years of           other small businesses in their market.
distinguished service and contributions to its
                                                     The OCC plays a key role in the safety and
community.” Of the 317 national banks founded
                                                     soundness of the Somerville National Bank and
in 1910, only 20 retain their original charter
                                                     all of the nearly 1,400 community banks under
in 2010. All the rest were subjects of merger,
                                                     the agency’s supervision. Many of them are as
acquisition, charter switch, or failure.
                                                     small as or smaller than Somerville, holding less
Aside from its remarkable longevity, the             than $100 million in assets. Such community
Somerville bank, 30 miles north of Cincinnati,       banks know that they can rely on the OCC
is a typical community bank. With six branches       and its examiners for their technical expertise.
and about $150 million in assets, the bank is no     Somerville is a community bank that earns high
longer among the smallest 1 percent. But it stays    marks from OCC examiners for its constructive
in close touch with its customers—small              attitude. As one examiner noted, it’s a bank that
depositors, home buyers, ranchers, and corn          does “not make the same mistake twice.”
and soybean farmers outside of town.
                                                     For 100 years, Somerville National Bank has
OCC examiners say that Somerville’s                  prided itself on protecting customers’ money
customer service is what sets it apart from          as if it were its own. According to bank lore,
other banks. Tellers greet customers and their       when robbers showed up one winter day
children by name when they walk in the door.         in 1930, they had to pistol-whip the bank’s
“That’s why they call us a community bank,”          founder and cashier, W.B. Bell, before he
explains one Somerville bank director. “It’s         would turn over the cash.
not just because we’re small, but because
                                                     That independent spirit lives on. Over the
we’re part of the community.”
                                                     century, many people and businesses have come
The Somerville National Bank was not the first       and gone in Somerville, Ohio. The bank’s red
in Ohio to introduce ATMs or online banking,         brick building on Main Street stands just as it
although it offers those services now. But it did    was when it was built 100 years ago.




                                                         Section Two: The OCC in America’s Communities | 25
Today’s National Bank                                           What kind of people are these men and women
                                                                who are so committed to their OCC careers
Examiner: Smart, Public                                         and to their communities? For one thing, they
Spirited, Technically                                           are well educated. The OCC today attracts
                                                                some of the brightest young people from the
Proficient                                                      nation’s campuses and some of the most capable
Most of the OCC’s 2,100 national bank                           veterans of the financial services industry.
examiners are assigned to help supervise                        Recent crops of college hires bring strong
the nation’s community banks. But their                         specialized skills to their jobs: 22 percent
commitment to those communities often goes                      majored in business administration, 18 percent
well beyond the banks in which they work.                       in finance, 15 percent in accounting, 14 percent
                                                                in banking and financial support services,
Scott Schainost, who heads the OCC’s Boston                     and 5 percent in economics. Many OCC
field office, spends some of his free time                      examiners go on to obtain advanced credentials
providing financial literacy instruction in                     and certifications in accounting, business,
local classrooms. Mr. Schainost values the                      financial analysis, and information systems—
perspective that he gets from his community                     accomplishments that make them even more
service. “I see firsthand how people worry                      valuable to the agency.
about the basic necessities like food,” he says,
“yet they pay high fees to payday lenders and
check cashing services.” His connections have
helped bring community groups and local banks
together in mutually beneficial partnerships.

For some OCC examiners, community service
is another way to give back—and a reminder of
the importance of the OCC’s mission. For New
York-based examiner Naomie Belony, it is an
opportunity to become a role model to young
people interested in financial careers. “I myself
went to an inner-city school,” she says. “I had                 Senior Deputy Comptroller Douglas W. Roeder offers career
no idea I could be a banker or examiner. Maybe                  advice to attendees of the OCC’s Career Forum.
I can inspire my students that it’s possible for
them, too.” Erik Rayford, an examiner in the                    Beyond academic skills, good bank examiners
OCC’s Central District, counsels high school                    are endowed with a unique temperament. “I
students as part of a National Academy of                       think of the examiner as a bit of a detective,”
Finance public service program. “One student                    says Bonnie Russell, National Recruitment
told me about her ambition to start a bank,” he                 Coordinator in the OCC’s Office of Human
recalls. “I helped find her a job at the local credit           Resources. “When they arrive at a bank, they
union. I told her she really could become a bank                must dig for details, be persistent, and solve
president one day. She has the ability. Now she                 problems. They combine pieces of information,
has some of the skills.”                                        apply rules or laws, and draw conclusions. Often




26 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
they must find a relationship between seemingly      One other characteristic of this generation
unrelated information and events. When one           of national bank examiners: They reflect the
exam is finished, they move to another bank and      full diversity of the United States. Women
use these same skills again.”                        compose 41 percent of OCC examiners, up from
                                                     33 percent in 1992. And 24 percent of national
New OCC examiners also tend to be technically        bank examiners are members of minority
sophisticated. “This generation of examiners         groups, up from 14 percent in 1992.
has grown up with technology,” says Jim Nowe,
an OCC information technology examiner who           This skilled, well-rounded, and diverse
serves as an instructor in the agency’s training     workforce has been tested in myriad ways
programs. “They’re comfortable with the              in recent years. For some, supervision of the
computer applications the OCC uses in its daily      troubled national banking system was a trial
supervisory business. And they’re fluent and at      by fire, involving long days and nights, heavy
ease in speaking to bankers about information        travel, and relentless stress. But it provided
security, deposit and loan processing controls,      these examiners with invaluable experience
electronic privacy issues, and intrusion detection   that will serve them and the OCC well in the
and prevention.”                                     years to come.




                                                         Section Two: The OCC in America’s Communities | 27
                                        THE OFFICE of the
                                        COMPTROLLER
                                        of the CURRENCY
                                         has a diverse workforce of more than
                                         3,100 professionals, including bank
                                         examiners, attorneys, economists,
                                         community affairs specialists, and
                                         administrative staff.




29 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
28
Section Three
Condition of the National
Banking System
National bank earnings in 2010 partially                 in the first half of 2009, before falling back
recovered from the low levels reached at the             to $63 billion in the first half of 2010.
depths of the financial crisis in 2008 and 2009.
Provision expenses for loan losses declined              Credit quality remained worrisome in 2010.
from year-earlier levels but remained well above         By the end of the second quarter, the ratio of
where they were before the crisis. Credit losses         noncurrent loans to total loans had deteriorated
continued to rise, though more slowly than in            for many classes of loans, as well as for loans
2009. Charge-off rates, while still at post-1990         in the aggregate, relative to the same point in
highs, appear to have peaked for most loan               2009. CRE loans were still deteriorating, and
categories. Bank revenues rose modestly from             CRE fundamentals, such as vacancy rates and
year-earlier levels, driven by solid growth in net       net operating income, were not expected to reach
interest income at the largest banks. Funding            bottom for another year or two. But not all classes
costs have remained low, particularly for the            of loans have followed the same pattern; in the
largest banks, which continue to benefit from            first half of 2010, the noncurrent ratio improved
large amounts of core deposits. Loan demand,             for credit cards, consumer loans, and loans for the
however, has grown at only about half the rate           construction of one- to four-family housing.
that would be expected after a severe recession.
                                                         Total credit losses continued to increase in the
Net income at national banks continued to rise in        first half of 2010, though the rate of increase
the first half of 2010, increasing by $22 billion        slowed markedly from the first half of 2009.
over the same period a year earlier. Profitability as    Charge-off rates for all major loan categories
measured by return on equity rose to 7.2 percent         except CRE reached post-1990 highs in 2009
for the second quarter, above the level of a year        and 2010 and are expected to remain well above
earlier but still well below historical levels.          historic averages at least through 2011. Credit
                                                         losses are expected to remain elevated because
                                                         residential mortgage foreclosures are still rising
Provisions and Credit Quality                            from already-record levels, even for prime
                                                         residential mortgages. The bright side of the
Loan-loss provisions remain a large factor               credit picture is that the ratio of charge-offs to
depressing the earnings of national banks,               loans on the books fell in the first half of 2010
despite a decline from record levels in 2009.            for most classes of real estate loans, as well as
Total provision expenses surged from                     for consumer and industrial loans and consumer
$15 billion in the first half of 2007 to $90 billion     installment loans.


                                                        Section Three: Condition of the National Banking System | 29
Revenues                                                        half as fast as it did after the last two severe
                                                                recessions. Moreover, consumers still appear
For the national banking system as a whole,                     to be deleveraging, perhaps to reduce debt
pre-provision net revenues rose 4 percent in                    burden and rebuild savings in the face of future
the first half of 2010, compared with the same                  uncertainties. If this trend continues, it could
period a year earlier. The biggest factor in this               mean slow growth in consumer spending (and
increase was solid growth in net interest income                borrowing), even if overall economic growth
at the largest banks, which rose 9 percent from                 returns to normal. Business capital spending
the previous year, with the gain in net interest                has so far been a bright spot in the recovery.
margins more than offsetting a slight fall in                   But with many firms flush with cash, and even
earning assets. Falling noninterest expenses                    medium-sized firms now able to borrow long-
at both large and small banks also contributed                  term at low rates in bond markets, banks have
to revenue growth. At the smaller banks, a                      seen little resulting growth in business lending.
modest increase in net interest income from
asset growth and a drop in noninterest expense
combined to raise pre-provision net revenues.                   Outlook
On the minus side, noninterest income for the
                                                                As the economy emerged from downturns in
national banking system fell 9 percent from
                                                                the past, banks often experienced several years
the previous year, with nearly all the decline
                                                                of steadily rising net interest income, despite
attributable to the largest banks, which saw
                                                                high and persistent loan losses. This upturn
sharply lower servicing fees. Service charges
                                                                allowed banks to rebuild their capital and return
on deposit accounts also fell, as did fee income
                                                                to health. After the recession of 1990–1991,
from investment banking, brokerage, and
                                                                for example, interest rates remained low for
advisory services.
                                                                several years, and net interest margins rose
                                                                more than enough to offset a decline in earning
Funding and Loan Growth                                         assets. However, with wholesale funding costs
                                                                currently at very low levels, there is little scope
Core deposits rose sharply during the recent                    for further funding-cost reductions. In addition,
financial crisis, as other investments appeared                 the growth in core deposits could slow or stop
less attractive and savers turned to banks                      as investor confidence recovers, so funding
for safety. Large banks have been the main                      costs could rise more quickly than asset yields.
beneficiaries of these deposit flows, which                     In such a scenario, funding-cost pressures, along
have helped hold down their funding costs.                      with faltering loan demand, could weigh on net
This pattern extended into 2010.                                interest income for some time to come. High
                                                                credit losses would make it difficult for banks to
Loan demand has grown more slowly than                          return to pre-crisis levels of profitability.
usual for an economic recovery, in part because
the economy as a whole has grown only about




30 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Section Four
Organization Profile

John Walsh
Acting Comptroller of the Currency
                          John Walsh became       Prior to joining the OCC, Mr. Walsh was
                          Acting Comptroller      the Executive Director of the Group of Thirty,
                          of the Currency on      a consultative group that focuses on
                          August 15, 2010.        international economic and monetary affairs.
                                                  He joined the group in 1992 and became
                           The Comptroller        Executive Director in 1995. Mr. Walsh served
                           of the Currency is     on the Senate Committee on Banking, Housing,
                           the chief executive    and Urban Affairs from 1986 to 1992 and
                           of the OCC, which      as an international economist for the U.S.
                           supervises nearly      Department of the Treasury from 1984 to
                           1,500 federally        1986. Mr. Walsh also served with the Office of
                           chartered commercial   Management and Budget as an international
banks and about 50 federal branches and           program analyst, with the Mutual Broadcasting
agencies of foreign banks in the United States.   System, and in the U.S. Peace Corps in Ghana.
These institutions hold more than two-thirds of
the assets of the commercial banking system.      Mr. Walsh holds a master’s degree in public
The Comptroller also is a director of the         policy from the John F. Kennedy School of
Federal Deposit Insurance Corporation and         Government at Harvard University (1978) and
NeighborWorks® America.                           graduated magna cum laude from the University
                                                  of Notre Dame in 1973. He lives in Catonsville,
Mr. Walsh joined the OCC in October 2005          Maryland. He is married with four children.
and previously served as Chief of Staff and
Public Affairs.




                                                                  Section Four: Organization Profile | 31
OCC Executive Committee




Seated, from left to right: Julie L. Williams, First Senior Deputy Comptroller and Chief Counsel; John Walsh, Acting Comptroller of the
Currency; Timothy W. Long, Senior Deputy Comptroller and Chief National Bank Examiner. Standing, from left to right: Mark Levonian,
Senior Deputy Comptroller for Economics; Thomas R. Bloom, Senior Deputy Comptroller for Management and Chief Financial Officer;
Jennifer C. Kelly, Senior Deputy Comptroller for Midsize and Community Bank Supervision; Douglas W. Roeder, Senior Deputy
Comptroller for Large Bank Supervision.




32 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Section Four: Organization Profile | 33
Bank Supervision Policy and  Midsize and Community
Chief National Bank Examiner Bank Supervision
The Department of Bank Supervision Policy is                    Senior Deputy Comptroller Jennifer C. Kelly
headed by Senior Deputy Comptroller and Chief                   oversees the Midsize and Community Bank
National Bank Examiner Timothy W. Long. The                     Supervision Department. The department
department focuses on developing supervisory                    develops and implements supervisory strategies
policies in the areas of bank information                       for midsize and community banks, focusing
technology, capital, commercial credit risk,                    on sound risk identification and management,
compliance, financial markets, balance sheet                    capital adequacy, and regulatory compliance.
and asset management, operational risk, and
credit risk. The department also contains the
Office of the Chief Accountant, which oversees                  Chief Counsel
accounting policy guidance for national banks.                  First Senior Deputy Comptroller and Chief
                                                                Counsel Julie L. Williams supervises the
                                                                OCC’s Law, Licensing, and Community Affairs
Large Bank Supervision                                          departments. The Law Department enforces
The Department of Large Bank Supervision is                     compliance with banking requirements, develops
headed by Senior Deputy Comptroller Douglas                     opinions on national bank powers and activities,
W. Roeder. The department oversees the                          represents the OCC in litigation, and issues
supervision of the largest and most complex                     regulations. The Licensing Department charters
national banking companies, as well as                          national banks and approves activities and
foreign-owned U.S. branches and agencies.                       structure changes that support a safe and sound
                                                                national banking system. The Community Affairs
                                                                Department supports national banks in the
                                                                provision of community development financing
                                                                and retail services to underserved communities
                                                                and consumers.




34 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Economics                                          Chief of Staff and
The Economics Department is headed by Senior       Public Affairs
Deputy Comptroller Mark Levonian. The              The Public Affairs Department, which reports to
department provides economic and quantitative      the Chief of Staff, supports the agency through its
analysis of national and global economic trends,   communications with the banking industry and its
supports bank supervision both on- and off-site,   representatives, the news media, Congress, and
contributes to policy development, and conducts    the public. It is also responsible for the OCC’s
original research to support the OCC’s mission.    internal communications program.


Ombudsman                                          Office of Management
The Office of the Ombudsman administers the        The Office of Management is directed by
national bank appeals program and the OCC’s        Thomas R. Bloom, the Senior Deputy
Customer Assistance Group. The office, headed      Comptroller for Management and Chief Financial
by Larry L. Hattix, reports directly to the        Officer. The office administers the OCC’s
Comptroller of the Currency.                       human resources, asset acquisition, travel and
                                                   staff relocation, physical space, training and
                                                   development, physical and personnel security,
                                                   compensation and benefits, and financial
                                                   management. It also has responsibility for
                                                   providing the OCC’s information technology
                                                   services and for its diversity, workplace fairness,
                                                   and equal opportunity function.




                                                                     Section Four: Organization Profile | 35
                                      THE OFFICE of the
                                      COMPTROLLER
                                      of the CURRENCY
                                       is headquartered in Washington, D.C.,
                                       and has district offices in Chicago,
                                       Dallas, Denver, and New York. The
                                       agency also has field and satellite offices
                                       in cities and communities throughout
                                       the United States and an examining
                                       office in London, England. Examiner
                                       teams are on-site full time at the largest
                                       national banking companies, affording
                                       examiners special insight into how these
                                       complex institutions operate. The vast
                                       majority of OCC examiners, however,
                                       supervise more than 1,400 smaller
                                       banks, also known as community
                                       banks. Keeping national banks and the
                                       communities they serve healthy and
                                       strong is the OCC’s foremost objective.




37 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
36
Section Five
Licensing and
Enforcement Measures
Figure 3: Corporate Application Activity, FY 2009 and FY 2010

                                              FY 2009        FY 2010                              FY 2010 decisions

                                                   Applications                                 Conditionally
                                                                            Approved                                Denied         Totalb
                                                    Received                                     approveda
    Branches                                         906           812               818                        1            0             819
    Capital/sub-debt                                 303           269               152                        5            0             157
    Change in bank control                             15             8                 0                       1            0              1
    Charters                                           21            17                 5                       7            0              12
    Conversionsc                                       13             4                 1                       4            0              5
    Federal branches                                    1             2                 0                       0            0              0
    Fiduciary powers                                   16            13                 0                       1            0              1
    Mergersd                                           57            71               51                     13              0             64
    Relocations                                      230           168               162                        4            0             166
    Reorganizations                                    81            49               33                     12              0             45
    Stock appraisals                                    1             0                 0                       0            0              0
    Subsidiariese                                      57            58               60                        4            1             65
    12 CFR 5.53 change in assets                        6             4                 1                       4            0              5
    Limited national bank upgrade                       3             0                 0                       0            0              0
    Total                                         1,710          1,475            1,283                      56              1       1,340

Source: OCC data.
a
    On April 14, 2000, the Licensing Department issued guidance imposing a special condition for approvals of bank charters that
    requires prior OCC no-objection to significant deviations or change in the operating plan during the first three years of operation.
b
    Total includes alternative decisions or no-objections.
c
    Conversions to national bank charters.
d
    Mergers include failure transactions when the national bank is the resulting institution.
e
    This count does not include 70 After-the-Fact notices received in fiscal year 2009 and 118 After-the-Fact notices received
    in fiscal year 2010.




                                                                                 Section Five: Licensing and Enforcement Measures | 37
Figure 4: Licensing Actions and Timeliness, FY 2009 and FY 2010
                                                                        FY 2009                                   FY 2010
                                                                            Within target                             Within target
                                    Target time         Number of                                  Number of
                                                                         Number       Percent                      Number       Percent
                                  frames in daysa       decisions                                  decisions

    Branches                                 45/60               916          888            97            819          806           98

    Capital/sub-debt                         30/45               116           112           97            157          148           94

    Change in bank
                                             NA/60                  5             4          80               5             3         60
    control

    Charters                                                       17           10           59              12             8         67

    Conversions                              30/90                  5             1          20               5             3         60

    Federal branches                       NA/120                   2             0           0               0             0           0

    Fiduciary powers                         30/45                  4             4        100                1             1        100

    Mergers                                  45/60                 46           43           93              64           61          95

    Relocations                              45/60               235          230            98            166          158           95

    Reorganizations                          45/60                 69           58           84              45           40          89

    Stock appraisals                         NA/90                  0             0           0               0             0           0

    Subsidiaries                                 NA                54           50           93              65           61          94

    12 CFR 5.53 change
                                             NA/60                  2             2        100                5             5        100
    in assets
    Limited national
                                                                    0             0           0               0             0           0
    bank upgradeb

    Total                                                     1,471         1,402            95          1,344        1,294           96

Source: OCC data.
Note: Most decisions (97 percent in 2009 and 95 percent 2010) were decided in the district offices and Large Bank Licensing under
delegated authority. Decisions include approvals, conditional approvals, and denials. NA means “not applicable.”
a
    Those filings that qualified for the “expedited review” process are subject to the shorter time frames listed. The longer time frames
    are the standard benchmarks for more complex applications. New time frames commenced in 1997 with the adoption of the revised
    part 5. The target time frame may be extended if the OCC needs additional information to reach a decision, permits additional time for
    public comment, or processes a group of related filings as one transaction.
b
    For independent charter applications, the target time frame is 120 days. For holding-company-sponsored applications, the target time
    frame is 45 days for applications eligible for expedited review and 90 days for all others.




38 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Figure 5: Change in Bank Control Act, FY 2006–2010 (Notices Processed With Disposition)
      Year          Received      Acted on      Not disapproved       Disapproved           Withdrawn

      2010             8             5                 5                    0                    0
      2009            10             7                 7                    0                    3
      2008             5             4                 4                    0                    0
      2007             6             6                 0                    0                    0
      2006             9             8                 4                    0                    4

Source: OCC data.




                                                       Section Five: Licensing and Enforcement Measures | 39
Figure 6: OCC Enforcement Actions, FY 2010
                                                                                                Against institution-
                Type of enforcement action                            Against banks
                                                                                                 affiliated parties

 Cease-and-desist orders                                                                60                              6
 Temporary cease-and-desist orders                                                       0                              0
 12 USC 1818 civil money penalties                                                       5                             43
 12 USC 1818 civil money penalties amount assessed $                           50,663,450 $                   399,900
 Flood insurance civil money penalties                                                   4                              0
 Flood insurance civil money penalties amount
                                                               $                    135,000 $                           0
 assessed
 Restitution orders                                                                      2                              0
 Amount of restitution ordered                                 $                5,875,000 $                             0
 Formal agreements                                                                     118                              0
 Capital directives                                                                      5                             NA
 Prompt corrective action directives                                                     2                             NA
 Individual minimum capital ratio letters                                              126                             NA
 Safety and soundness orders                                                             0                             NA
 Memoranda of understanding                                                             37                              0
 Commitment letters                                                                      5                             NA
 Suspension orders                                                                      NA                              0
 12 USC 1818 removal/prohibition orders                                                 NA                             25
 12 USC 1829 prohibitions                                                               NA                         145
 Letters of reprimand                                                                   NA                             17
 Total                                                                                 364                         236

Source: OCC data.




40 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Figure 7: List of Applications Presenting Community Reinvestment Act Issues Decided, FY 2010
                                                                Interpretations
                       Bank, city, state                                                Document number
                                                                  and actions

 First Niagara Bank, National Association, Buffalo,
                                                               March 2010         Conditional Approval 952
 N.Y. (conversion/merger)

 Rabobank, National Association, El Centro, Calif. (merger)    April 2010         CRA Decision No. 146

 Morgan Stanley Private Bank, National Association,
                                                               June 2010          CRA Decision No. 147
 Jersey City, N.J. (conversion)

 TD Bank, National Association, Wilmington, Del. (merger)      July 2010          Conditional Approval 964

Source: OCC data.




                                                              Section Five: Licensing and Enforcement Measures | 41
                                      THE OFFICE of the
                                      COMPTROLLER
                                      of the CURRENCY
                                      receives no congressional appropriations.
                                      About 97 percent of its operating
                                      costs are funded by semiannual
                                      assessments levied on national banks,
                                      with the balance coming largely from
                                      investments in U.S. Treasury securities.




43 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
42
Section Six
Financial Management
Discussion and Analysis

Letter From the                                      effectively and no material weaknesses have
                                                     been found in its design or operation.
Chief Financial Officer
                                                     In FY 2011, the OCC will focus on leveraging
                          I am pleased
                                                     its strong internal-control environment as the
                          to present the
                                                     OCC implements the provisions of Dodd–
                          OCC’s financial
                                                     Frank. In the year ahead, the OCC takes on
                          statements as an
                                                     the additional responsibility of chartering
                          integral part of the
                                                     and supervising federal thrifts, functions that
                          Fiscal Year 2010
                                                     prior to Dodd–Frank were performed by the
                          Annual Report.
                                                     OTS. This change presents opportunities and
                          For FY 2010,
                                                     challenges for the OCC, in bank supervision
                          our independent
                                                     as well as in administrative and financial
                          auditors have
                                                     operations. OCC and OTS officials already
                          again rendered an
                                                     have begun in earnest the hard work of
unqualified opinion with no material internal-
                                                     integrating our missions and operations. I lead
control weaknesses.
                                                     one of several OCC teams already working
While the OCC has long prided itself on its          with our OTS colleagues to ensure an efficient
consistent record of unqualified opinions on         and thoughtful transition. We are addressing
its financial statements, it is an outcome we        the impact of this transition on transferred
never take for granted. Our comprehensive            personnel, the accurate recording of assets and
internal-controls program includes a separate        liabilities that are assumed, the effect on systems
financial statement assurance process mandated       infrastructure, and office space requirements.
by Office of Management and Budget (OMB)
                                                     The OCC is a nonappropriated federal agency
Circular A-123, “Management’s Responsibility
                                                     that continues to be funded largely from
for Internal Control.” Annually, the Financial
                                                     assessments on national banks and thrifts.
Management Department conducts a detailed
                                                     Because the OTS also is a nonappropriated
risk assessment of the financial statements and
                                                     agency funded in a similar manner, the
applies rigorous tests of controls. As a result
                                                     financial controls already in place at the OCC
of this process, the OCC is once again able to
                                                     will ensure a smooth financial transition, as the
provide unqualified assurance that its internal
                                                     provisions of Dodd–Frank are implemented.
control over financial reporting is operating



                                                  Section Six: Financial Management Discussion and Analysis | 43
An additional working group consisting of                       administrative functions into the OCC. Also,
OCC and OTS members has been established to                     in FY 2010, the OCC completed 30 business
review and determine the anticipated operating                  process improvement projects. Most of those
needs of the OCC in FY 2012. This work group                    projects used the Lean Six Sigma methodology,
also must ensure that the current assessment                    which resulted in a cost savings or avoidance
rate structure will provide adequate funding for                of $10.1 million. Since the inception of the
OCC operations in FY 2012 and beyond. Bank                      Lean Six Sigma program in FY 2005, total cost
assessments are used to fund the OCC’s operating                savings or avoidance has totaled $21.0 million
costs, which include personnel, travel, and                     annually and 70 OCC staff members have been
training. These three items alone represent                     certified as Master Black Belts, Black Belts, and
75.0 percent of the total annual budget.                        Green Belts.
Budgetary funds remaining unused at year-end
are placed into the OCC’s financial reserves.                   The challenges the OCC faces in FY 2011
These reserves play an integral role in ensuring                will not distract us from our responsibility to
the OCC’s financial health, and they allow the                  maintain a strong internal-control environment
OCC to plan for future needs without continually                and sound fiscal policies. We will continue to
changing the bank assessment rate structure. In                 search for opportunities to eliminate duplication
addition, reserves are available to address special             of effort and improve our operational efficiency.
one-time needs as a result of the regulatory                    We will continue to streamline administrative
restructuring required by Dodd–Frank.                           processes to facilitate the accomplishment of the
                                                                OCC’s core mission. Finally, we will continue
In FY 2011, the OCC also will rely on its                       to dedicate the finest people and resources
administrative process-improvement program to                   available to managing and monitoring the
integrate the functions formerly performed by                   effective and efficient use of OCC funds.
the OTS. In FY 2008, the Office of Management
undertook a strategic study to document all
of its critical administrative processes. By the
end of FY 2010, we had reviewed 41 of our 54
critical processes. The results of these reviews
                                                                                     Thomas R. Bloom
will play a critical role in integrating the OTS’s
                                                                                     Chief Financial Officer




44 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Financial Highlights                                   assessments from national banks and from other
                                                       income, including interest on investments in
Overview                                               U.S. Treasury securities. Non-entity assets are
The OCC received an unqualified opinion on its         assets that the OCC holds on behalf of another
FY 2010 and FY 2009 financial statements. The          federal agency. The OCC’s non-entity assets
financial statements consist of Balance Sheets,        presented as accounts receivable are civil money
Statements of Net Cost, Statements of Changes          penalties due the federal government through
in Net Position, and Statements of Budgetary           court-enforced legal actions.
Resources. The OCC presents the financial
statements and notes on a comparative basis,           As of September 30, 2010, total assets were
providing financial information for FY 2010            $1,111.8 million, an increase of $42.8 million
and FY 2009. The financial statements were             or 4.0 percent from the level on September 30,
prepared from the OCC’s accounting records in          2009. This increase is primarily attributable to
conformity with generally accepted accounting          the growth in the OCC’s investment portfolio.
principles for U.S. federal agencies (federal          Investments and accrued interest increased by
GAAP). The financial statements, notes, and            $59.4 million, or 6.0 percent, due to an increase
auditor’s opinion begin on page 51. A summary          in net revenues, which resulted from national
of the OCC’s financial activities in FY 2010 and       bank asset growth during FY 2010. Figure 8
FY 2009 follows.                                       shows the OCC’s composition of assets for
                                                       FY 2010 and FY 2009.
Assets
The OCC’s assets include both “entity” and “non-       Liabilities
entity” assets. The OCC uses entity assets, which      The OCC’s liabilities represent the resources
belong to the agency, to fund operations. The          due to others or held for future recognition
OCC acquires revenue through the collection of         and are composed largely of deferred revenue,




                                                    Section Six: Financial Management Discussion and Analysis | 45
accrued liabilities, and accounts payable.                      Net Position
Deferred revenue represents the unearned                        The OCC’s net position of $785.5 million as of
portion of semiannual assessments that have                     September 30, 2010, and $754.3 million as of
been collected but not earned.                                  September 30, 2009, represent the cumulative
                                                                net excess of the OCC’s revenues over the cost
As of September 30, 2010, total liabilities were                of operations since inception. The majority
$326.4 million, a net increase of $11.7 million,                of this increase of $31.2 million, or 4.1 percent,
or 3.7 percent, over the level on September 30,                 directly relates to greater-than-expected
2009. The increase of $5.3 million, or 2.8 percent,             net revenue from assessments over FY 2009.
in deferred revenue was a result of an increase                 The net position is presented on both the
in assessment collections during FY 2010. The                   Balance Sheets and the Statements of Changes
increase of $3.3 million, or 3.3 percent, in accounts           in Net Position.
payable and accrued liabilities was primarily
caused by an increase in payroll and employee                   As discussed in the next section, the OCC
benefits over last year. Figure 9 illustrates the               reserves a significant portion of the net position
OCC’s composition of liabilities for FY 2010                    to supplement resources made available to fund
and FY 2009.                                                    the OCC’s annual budget and to cover foreseeable




46 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
but rare events. The OCC also earmarks funds for         for the replacement of information technology
ongoing operations to cover undelivered orders,          investments, leasehold improvements, and
the consumption of assets, and capital investments.      furniture replacement for future years. The
Figure 10 shows the OCC’s composition of net             OCC establishes the target level in the asset
position for FY 2010 and FY 2009.                        replacement reserve annually, based on the gross
                                                         value of existing fixed-asset accounts, a growth-
Reserves                                                 rate factor, and other market cost adjustments.
The establishment of financial reserves
is integral to the effective stewardship of              Revenues and Costs
the OCC’s resources, particularly because                The OCC does not receive congressional
the agency does not receive congressional                appropriations. The OCC’s operations are funded
appropriations. The contingency reserve reduces          primarily by assessments collected from national
the impact on the OCC’s operations of revenue            banks and interest on investments in U.S. Treasury
shortfalls resulting from foreseeable but rare           securities. The Comptroller of the Currency, in
events that are beyond the OCC’s control, or             accordance with 12 USC 482, establishes budget
from new requirements and opportunities.                 authority for a given fiscal year. The total budget
Examples of such events might include a                  authority available for use by the OCC in FY 2010
major change in the national banking system,             was $791.7 million, which represents an increase
a fire or flood, or significant impairment to the        of $16.4 million, or 2.1 percent, over the $775.3
OCC’s information technology network that                million budget in FY 2009.
interferes with the OCC’s ability to accomplish
its mission. In addition, reserves are available         Total FY 2010 revenue of $786.7 million
to address special one-time needs as a result            reflects a $12.0 million, or 1.5 percent, increase
of the regulatory restructuring required by              over FY 2009 revenues of $774.7 million.
Dodd–Frank. The asset replacement reserve is             The increase is primarily attributable to a rise
                                                         in bank assessment revenue stemming from


                                                      Section Six: Financial Management Discussion and Analysis | 47
bank asset growth in the national banking                               revenue for FY 2010 and FY 2009. Figure 12
system. Total assets under OCC supervision                              shows the composition of national bank assets
rose during FY 2010 to $8.5 trillion, up                                by large banks, midsize banks, community
2.4 percent, from $8.3 trillion a year earlier.                         banks, and federal branches for FY 2010
Figure 11 depicts the components of total                               and FY 2009.


Figure 11: Components of Total Revenue (in Millions)
                                                                      FY 2010          FY 2009            Change            Percent
    Assessments                                                   $        764.4 $           751.2 $             13.2            1.8%
    Investments and other incomea                                           22.3               23.5              (1.2)             (0.1)
    Total revenue                                                 $        786.7 $           774.7 $             12.0             1.5%
Source: OCC financial system data.
a
    Other sources of revenue include bank licensing fees, revenue received from the sale of publications, and other miscellaneous sources.




Investments                                                             of 12 USC 481 and 12 USC 192. A portion of
The book value of the OCC’s investment                                  the increase in investments of $59.4 million,
portfolio on September 30, 2010, was                                    or 6.0 percent, during the fiscal year reflects
$1,041.1 million, compared with $981.8 million                          the investment of greater-than-expected net
a year earlier. The market value of the OCC’s                           revenue from assessments. The portfolio earned
portfolio in excess of book value rose to                               an annual yield for FY 2010 of 2.6 percent,
$37.9 million from $24.1 million on September                           compared with 2.9 percent in FY 2009.
30, 2009. The OCC invests available funds in                            The OCC calculates annual portfolio yield
non-marketable U.S. Treasury securities issued                          by dividing the total interest earned during
through the Treasury Department’s Bureau of                             the year by the average ending monthly book
Public Debt in accordance with the provisions                           value of investments.


48 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Cost of Operations                                    Insurance plans, totaling $32.9 million in
The OCC’s net cost of operations is reported on       FY 2010 and $26.2 million in FY 2009.
the Statements of Net Cost and the Statements         Beginning in FY 2010, the OCC displays
of Changes in Net Position. The OCC uses              gains and losses from changes in long-term
an activity-based time reporting system to            assumptions used to estimate federal
allocate costs among the agency’s programs.           employee pension, other retirement benefit
Costs are further divided into those resulting        (ORB), and other postemployment benefit
from transactions between the OCC and other           (OPEB) liabilities as a separate line item on
federal entities (intragovernmental) and those        the Statements of Net Cost in accordance
between the OCC and nonfederal entities (with         with the guidance outlined in Statement of
the public). The Statements of Net Cost present       Federal Financial Accounting Standards
the full cost of operating the OCC’s three major      No. 33, “Pensions, Other Retirement Benefits,
programs—supervise, regulate, and charter             and Other Postemployment Benefits: Reporting
national banks—for the years ended September          the Gains and Losses from Changes in
30, 2010, and September 30, 2009. Figure              Assumptions and Selecting Discount Rates
13 illustrates the breakdown of the cost of           and Valuation Dates” (SFFAS 33). FY 2010
operations for FY 2010 and FY 2009.                   total program costs of $786.6 million reflect
                                                      an increase of $57.3 million, or 7.9 percent,
The full cost presented in the Statements             from $729.3 million in FY 2009. The increase
of Net Cost includes costs contributed by the         was primarily due to an increase in the cost
Office of Personnel Management (OPM) on               of pay and benefits. Additional contributing
behalf of the OCC to cover the cost of the            factors include increases to contractual services
Federal Employees Retirement System and               supporting maintenance, noncapitalized
Civil Service Retirement System retirement            information technology investments, rent,
plans and the Federal Employees’ Health               and travel costs.
Benefits and Federal Employees’ Group Life




                                                   Section Six: Financial Management Discussion and Analysis | 49
The full cost is reduced by earned revenues to                  Budgetary Resources
arrive at net cost. Earned revenues increased by                The Statements of Budgetary Resources,
$12.0 million, or 1.6 percent, to $786.7 million                designed primarily for appropriated fund
in FY 2010, due to an increase in FY 2010 bank                  activities, present the budgetary resources
assessments that was slightly offset by minor                   available to the OCC for the year, the status
decreases in other revenues. The increases                      of these resources at the end of the year, and
in assessments are a direct result of bank                      the net outlay of budgetary resources at the
asset growth in the national banking system,                    end of the year. The OCC, which is
particularly the largest banks. Correspondingly,                a nonappropriated agency, executed
the costs of supervising the national banks                     $744.5 million, or 94.0 percent, of the
have risen because of the increasing size and                   FY 2010 budget of $791.7 million.
complexity of national bank assets.




50 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Financial Statements

                               Office of the Comptroller of the Currency
                                             Balance Sheets
                                   As of September 30, 2010 and 2009
                                                 (in Thousands)


                                                                            2010                       2009

Assets
   Intragovernmental:
      Fund balance with Treasury (Note 2)                          $                3,981     $                4,492
      Investments and related interest (Note 3)                               1,044,678                    985,330
  Total intragovernmental                                                     1,048,659                    989,822


   Accounts receivable, net (Note 4)                                                 661                        556
   Property and equipment, net (Note 5)                                            62,460                     78,591
   Advances and prepayments                                                            49                         29


Total assets                                                       $          1,111,829       $          1,068,998

Liabilities
   Intragovernmental:
      Accounts payable and other accrued liabilities               $                2,489     $                1,501
  Total intragovernmental                                                           2,489                      1,501


   Accounts payable                                                                 9,772                     10,708
   Accrued payroll and benefits                                                    32,463                     29,814
   Accrued annual leave                                                            37,476                     35,497
   Other accrued liabilities                                                       23,442                     24,832
   Deferred revenue                                                             194,443                    189,065
   Other actuarial liabilities (Note 7)                                            26,290                     23,263
   Total liabilities                                                            326,375                    314,680

   Net position (Note 8)                                                        785,454                    754,318

Total liabilities and net position                                 $          1,111,829       $          1,068,998




                    The accompanying notes are an integral part of these financial statements.



                                                       Section Six: Financial Management Discussion and Analysis | 51
                              Office of the Comptroller of the Currency
                                        Statements of Net Cost
                           For the Years Ended September 30, 2010 and 2009
                                                      (in Thousands)


                                                                                    2010                2009
 Program costs
    Supervise national banks
        Intragovernmental                                                 $                94,707   $          84,804
        With the public                                                                580,615             533,080
    Subtotal – supervise national banks                                   $            675,322      $      617,884


    Regulate national banks
        Intragovernmental                                                 $                13,972   $          13,434
        With the public                                                                    83,415              82,994
    Subtotal – regulate national banks                                    $                97,387   $          96,428


    Charter national banks
        Intragovernmental                                                 $                 2,063   $           2,171
        With the public                                                                    11,796              12,828
    Subtotal – charter national banks                                     $                13,859   $          14,999


 Total program costs                                                      $            786,568      $      729,311
    Less: earned revenues not attributed to programs                                  (786,717)           (774,702)
 Net program costs before actuarial gains/loss from
 experience and changes in assumptions                                    $                 (149)   $      (45,391)
 (Gain)/loss from actuarial experience (Note 7)                                              375                 (10)
 (Gain)/loss from actuarial assumption changes                                              1,528               3,334
 Net cost of operations (Note 9)                                          $                 1,754   $      (42,067)




                      The accompanying notes are an integral part of these financial statements.



52 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
                          Office of the Comptroller of the Currency
                            Statements of Changes in Net Position
                       For the Years Ended September 30, 2010 and 2009
                                               (in Thousands)


                                                                          2010                       2009


Beginning balances                                               $            754,318       $            686,055


Other financing sources:
  Imputed financing (Note 10)                                                    32,890                     26,196


Net cost of operations                                                           (1,754)                    42,067


Net change                                                                       31,136                     68,263


Ending balances                                                  $            785,454       $            754,318




                  The accompanying notes are an integral part of these financial statements.



                                                     Section Six: Financial Management Discussion and Analysis | 53
                              Office of the Comptroller of the Currency
                                 Statements of Budgetary Resources
                           For the Years Ended September 30, 2010 and 2009
                                                      (in Thousands)


                                                                                    2010                 2009
 Budgetary resources
    Unobligated balance, brought forward, October 1                       $            793,371       $     734,357
    Spending authority from offsetting collections
        Earned
           Collected                                                                   794,029             775,415
           Receivable from federal sources                                                     79                (403)
        Subtotal                                                                       794,108              775,012
 Total budgetary resources                                                $          1,587,479       $    1,509,369

 Status of budgetary resources
    Obligations incurred                                                  $            740,220       $     715,998
    Unobligated balance available                                                      847,259             793,371

 Total status of budgetary resources                                      $          1,587,479       $    1,509,369

 Change in obligated balance
    Obligated balance, net, beginning of period
        Unpaid obligations brought forward, October 1                     $            177,517       $     165,568
        Uncollected customer payments from federal                                         (3,500)              (3,904)
        sources, October 1
    Total unpaid obligated balance, net                                                174,017             161,664

    Obligations incurred                                                               740,220             715,998
    Gross outlays                                                                     (733,236)           (704,049)
    Change in uncollected customer payments from                                              (79)                 403
    federal sources
    Obligated balance, net, end of period
        Unpaid obligations                                                             184,501              177,517
        Uncollected customer payments from federal sources                                 (3,579)          (3,500)
    Obligated balance, net, end of period                                              180,922              174,017
    Net outlays
        Gross outlays                                                     $            733,236       $     704,049
        Offsetting collections                                                        (794,029)           (775,415)

 Net outlays                                                              $            (60,793)      $     (71,366)



                      The accompanying notes are an integral part of these financial statements.



54 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Notes to the Financial                                   that enables the national banking system to provide
                                                         a full, competitive array of financial services; and
Statements                                               promoting fair access to financial services and fair
                                                         treatment of bank customers.
Note 1—Significant Accounting Policies
                                                         B. Basis of Accounting and Presentation
A. Reporting Entity                                      The accompanying financial statements present
The OCC was created as a bureau within the               the operations of the OCC. The OCC’s financial
U.S. Department of the Treasury by an act of             statements are prepared from the agency’s
Congress in 1863. The mission of the OCC was             accounting records in conformity with generally
to establish and regulate a system of federally          accepted accounting principles for United States
chartered national banks. The National Currency          (U.S.) federal agencies (federal GAAP) as set forth
Act of 1863, rewritten and reenacted as the              by the Federal Accounting Standards Advisory
National Bank Act of 1864, authorized the OCC            Board (FASAB). The financial statements are
to supervise national banks and to regulate the          presented in accordance with the form and content
lending and investment activities of federally           guidelines established by the OMB in Circular
chartered institutions.                                  No. A-136, “Financial Reporting Requirements.”

On July 21, 2010, President Obama signed                 In addition, the OCC applies financial
into law the Dodd–Frank Wall Street Reform               accounting and reporting standards issued by
and Consumer Protection Act, which includes              the Financial Accounting Standards Board
the Enhancing Financial Institution Safety and           only as outlined in the GAAP hierarchy
Soundness Act of 2010 (the “Act”). Under the             contained in Statement of Auditing Standard
Act, the transfer of OTS functions to the OCC            No. 91, “Federal GAAP Hierarchy.” The GAAP
includes rule-making authority, personnel,               hierarchy consists of the sources of accounting
property, and funds relating to federal savings          principles used in the preparation of federal
associations. The Act abolishes the OTS effective        reporting entities’ financial statements that are
at the end of a one-year period beginning on the         presented in conformity with GAAP and the
date of enactment (the “transfer date”).                 framework for selecting those principles.

Upon enactment of the Act, the OTS must pay              The OCC’s financial statements consist of
the OCC for such amounts the OCC determines              Balance Sheets, Statements of Net Cost, Statements
necessary for expenses associated with the               of Changes in Net Position, and Statements of
transfer of functions, including the expenses for        Budgetary Resources. The OCC presents its
personnel, property, and administrative services,        financial statements on a comparative basis,
during the period beginning on the date of the           providing information for FY 2010 and FY 2009.
enactment of the Act and ending
                                                         The financial statements reflect both the accrual
on the transfer date.
                                                         and budgetary bases of accounting. Under the
The financial statements report on the OCC’s             accrual method, revenues are recognized when
three major programs: supervise, regulate, and           earned, and expenses are recognized when
charter national banks. These programs support           a liability is incurred, without regard to cash
the OCC’s overall mission by ensuring the safety         receipt or payment. The budgetary method
and soundness of the national banking system;            recognizes the obligation of funds according
fostering a flexible legal and regulatory framework      to legal requirements, which in many cases is


                                                      Section Six: Financial Management Discussion and Analysis | 55
made before the occurrence of an accrual-based                  D. Earmarked Funds
transaction. Budgetary accounting is essential for              Earmarked funds are financed by specifically
compliance with legal constraints and controls                  identified revenues, often supplemented by other
over the use of federal funds.                                  financing sources, which remain available over
                                                                time. These specifically identified revenues and
In accordance with federal GAAP, the                            other financing sources are required by statute
preparation of financial statements requires                    to be used for designated activities, benefits, or
management to make estimates and assumptions                    purposes, and must be accounted for separately
that affect the reported amounts of assets and                  from the government’s general revenues.
liabilities, the disclosure of contingent assets and            In accordance with FASAB SFFAS No. 27,
liabilities at the date of the financial statements,            “Identifying and Reporting Earmarked Funds,”
and the reported amounts of revenue and expense                 all of the OCC’s revenue meets this criterion
during the reporting period. Such estimates and                 and constitutes an earmarked fund.
assumptions could change in the future as more
information becomes known, which could affect                   E. Fund Balance With Treasury
the amounts reported and disclosed herein.                      The Treasury Department processes the OCC’s
                                                                cash receipts and disbursements. Sufficient
Throughout these financial statements, assets,
                                                                funds are maintained in a U.S. government trust
liabilities, earned revenues, and costs have been
                                                                revolving fund and are available to pay current
classified according to the entity responsible for
                                                                liabilities. The OCC’s Statements of Budgetary
these transactions. Intragovernmental earned
                                                                Resources reflect the status of the agency’s Fund
revenues are collections or accruals of revenue
                                                                Balance with Treasury.
from other federal entities, and intragovernmental
costs are payments or accruals of expenditures to               F. Investments
other federal entities.
                                                                It is the OCC’s policy to invest available
C. Revenues and Other Financing Sources                         funds in accordance with the provisions of
                                                                12 USC 481 and 12 USC 192. The OCC
The OCC derives its revenue primarily from
                                                                invests available funds in non-marketable
assessments and fees paid by national banks
                                                                U.S. Treasury securities, which may include
and income on investments in non-marketable
                                                                one-day certificates, bills, notes, and bonds.
U.S. Treasury securities. The OCC does not
                                                                The OCC does not invest funds with state or
receive congressional appropriations to fund any
                                                                national banks. The OCC has the positive intent
of the agency’s operations. Therefore, the OCC
                                                                and ability to hold all U.S. Treasury securities
does not have any unexpended appropriations.
                                                                to maturity in accordance with Statement of
By federal statute 12 USC 481, the OCC’s                        Financial Accounting Standard (SFAS) No. 115,
funds are maintained in a U.S. government trust                 “Accounting for Certain Investments in Debt
revolving fund. The funds remain available to                   and Equity Securities,” and does not maintain
cover the annual costs of the OCC’s operations                  any available for sale or trading securities. The
in accordance with policies established by                      OCC manages risk by diversifying the agency’s
the Comptroller of the Currency.                                portfolio across maturities within established
                                                                parameters. Diversifying maturities of the
                                                                individual securities is meant to help manage
                                                                the inherent risk of interest-rate fluctuations.




56 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
G. Accounts Receivable                                    Accrued Annual Leave
In accordance with SFFAS No. 1, “Accounting               The OCC accounts for liabilities in accordance
for Selected Assets and Liabilities,” the OCC             with SFFAS No. 5, “Accounting for Liabilities
updates the “allowance for loss on accounts               of the Federal Government.” In accordance
receivable” account annually or as needed to              with SFFAS No. 5, annual leave is accrued
reflect the most current estimate of accounts             and funded by the OCC as it is earned, and the
that are likely to be uncollectible. Accounts             accrual is reduced as leave is taken or paid.
receivable from the public are reduced by an              Each year, the balance in the accrued annual
allowance for loss on doubtful accounts.                  leave account is adjusted to reflect actual leave
                                                          balances with current pay rates. Sick leave and
H. Property and Equipment                                 other types of leave are expensed as incurred.
Property and equipment, including internal-
use software, are accounted for in accordance             Deferred Revenue
with SFFAS No. 6, “Accounting for Property,               The OCC’s activities are primarily financed by
Plant, and Equipment,” and SFFAS No. 10,                  assessments on assets held by national banks
“Accounting for Internal Use Software.”                   and the federal branches of foreign banks. These
                                                          assessments are due March 31 and September
Property and equipment purchases and                      30 of each year, based on asset balances as
additions are stated at cost. The OCC expenses            reflected on Reports of Condition and Income
acquisitions that do not meet the capitalization          (call reports) dated December 31 and June 30,
criteria, such as normal repairs and maintenance,         respectively. Assessments are paid mid-cycle and
when they are received or incurred.                       are recognized as earned revenue on a straight-
                                                          line basis over the six months following the call
In addition, property and equipment are                   report date. The unearned portions of collected
depreciated or amortized, as applicable, over             assessments are classified as deferred revenue.
their estimated useful lives using the straight-line
method. They are removed from the OCC’s asset             J. Employment Benefits
accounts in the period of disposal, retirement, or
                                                          Retirement Plan
removal from service. Any difference between
the book value of the property and equipment and          The OCC’s employees are eligible to participate
amounts realized is recognized as a gain or loss          in either the Civil Service Retirement System
in the same period that the asset is removed.             or the Federal Employees Retirement System,
                                                          depending on when they were hired by the
I. Liabilities                                            federal government. Pursuant to the enactment
                                                          of Public Law 99-335, which established the
Accounts Payable
                                                          Federal Employees Retirement System, most
Liabilities represent the amounts owed or                 employees hired after December 31, 1983, are
accrued under contractual or other arrangements           automatically covered by the Federal Employees
governing the transactions, including operating           Retirement System and Social Security.
expenses incurred but not paid. Payments are              Employees hired before January 1, 1984, are
made in a timely manner in accordance with the            covered by the Civil Service Retirement System,
Prompt Payment Act. Interest penalties are paid           with the exception of those who, during the
when payments are late. Discounts are taken               election period, joined the Federal Employees
when cost effective, and when the invoice is              Retirement System.
paid within the discount period.



                                                       Section Six: Financial Management Discussion and Analysis | 57
Thrift Savings Plan                                             Postretirement Life Insurance Benefit Plan
The OCC’s employees are eligible to participate                 The OCC sponsors a life insurance benefit plan
in the federal Thrift Savings Plan. For those                   for current and retired employees. This plan
employees under the Federal Employees                           is a defined benefit plan for which the benefit
Retirement System, a Thrift Savings Plan                        is earned over the period from the employee’s
account is automatically established, and the                   date of hire to the date on which the employee
OCC contributes a mandatory 1.0 percent of                      is assumed to retire. The valuation of the plan
base pay to this account. In addition, the OCC                  is conducted in accordance with generally
matches employee contributions up to an                         accepted actuarial principles and practices,
additional 4.0 percent of pay, for a maximum                    including the applicable Actuarial Standards of
OCC contribution of 5.0 percent of base pay.                    Practice as issued by the Actuarial Standards
                                                                Board. Specifically, the OCC uses the actuarial
OCC 401(k) Plan                                                 cost method as outlined in SFAS No. 87,
In addition to the federal Thrift Savings                       “Employers’ Accounting for Pensions,” to
Plan, employees can elect to contribute a portion               determine costs for its retirement plans. Gains or
of their base pay in the OCC-sponsored 401(k)                   losses owing to changes in actuarial assumptions
plan, subject to Internal Revenue Service                       are amortized over the service life of the plan.
regulations that apply to employee contributions                The actuarial assumptions and methods used in
in both the federal Thrift Savings Plan and the                 calculating actuarial amounts comply with the
OCC-sponsored 401(k) plan. Currently, the OCC                   requirements for postretirement benefits other
contributes a fixed 2.0 percent of base pay to                  than pensions as set forth in SFAS No. 106,
the plan for all qualified employees, regardless                “Employers’ Accounting for Postretirement
of whether they contribute to the plan or not. In               Benefits Other Than Pensions,” and for health
addition, the OCC will match an additional 1.0                  benefit plans as set forth in American Institute
percent employee contribution, for a maximum                    of Certified Public Accountants Statement of
OCC contribution of 3.0 percent of base pay.                    Position 92-6.
The OCC contracts with an independent public
accounting firm to perform an audit of the 401(k)               K. Custodial Revenues and Collections
plan and related financial statements. The FY                   Non-entity receivables, liabilities, and revenue
2010 and FY 2009 financial statements for the                   are recorded as custodial activity and include
plan received an unqualified opinion.                           amounts collected for fines, civil money
                                                                penalties, and related interest assessments.
Federal Employees’ Health Benefits and                          Revenues are recognized as cash collected that
Federal Employees’ Group Life Insurance                         will be transferred to the General Fund of the
Employees and retirees of the OCC are eligible to               U.S. Treasury at the end of the fiscal year.
participate in Federal Employees’ Health Benefits
and Federal Employees’ Group Life Insurance                     L. Effects of Recent
plans that involve a cost sharing of biweekly                   Accounting Pronouncements
coverage premiums by employee and employer.                     In October 2008, the FASAB issued SFFAS
The OPM administers both of these employee                      No. 33, “Pensions, Other Retirement Benefits,
benefit plans.                                                  and Other Postemployment Benefits,” effective
                                                                for reporting periods after September 30, 2009.
                                                                This standard applies to federal entities that report
                                                                liabilities and expenses for federal employee



58 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
pensions, other retirement benefits (ORB), and             Note 2—Fund Balance With Treasury
other postemployment benefits (OPEB) in general-           The status of fund balance with Treasury (FBWT)
purpose financial reports prepared pursuant to             represents the budgetary resources that support
FASAB standards. The OCC benefits program                  the FBWT and is a reconciliation between
includes a Postretirement Life Insurance Benefit           budgetary and proprietary accounts. The OCC’s
Plan, a defined benefit program for which the              FBWT is designated by Treasury as a trust fund.
OCC reports such liabilities. Therefore, the OCC           It consists of unobligated and obligated balances
is subject to the requirements for component               that reflect the budgetary authority remaining for
entities as outlined in the standard. As a result,         disbursement against current or future obligations.
the OCC implemented SFFAS No. 33 in                        In FY 2010 the OCC combined Cash with FBWT
FY 2010. This standard requires that gains and             on its Balance Sheets and reclassified its FY 2009
losses from changes in long-term assumptions               balances to conform to the new presentation.
used to estimate federal employee pension,
ORB, and OPEB liabilities be displayed on the              The unobligated balance represents the
statement of net cost separately from other costs.         cumulative amount of budgetary authority that
It also requires disclosure of the components of           has not been set aside to cover outstanding
the expense associated with federal employee               obligations and is classified as available for
pension, ORB, and OPEB liabilities in notes                future OCC use without further congressional
to the financial statements. This statement also           action. The obligated balance not yet disbursed
provides standards for selecting the discount rate         represents funds that have been obligated for
assumption for present value estimates of federal          goods that have not been received or services
employee pension, ORB, and OPEB liabilities for            that have not been performed. It also represents
which there is currently uncertainty in practice.          goods and services that have been delivered or
In addition, this statement provides a standard for        received but not yet paid for. The nonbudgetary
selecting the valuation date for estimates of federal      FBWT account represents adjustments to
employee pension, ORB, and OPEB liabilities,               budgetary accounts that do not affect the FBWT.
which will establish a consistent method for               The OCC’s balance represents investment
such measurements.                                         accounts that reduce the status of the FBWT.
                                                           The figure below depicts the OCC’s FBWT
                                                           amounts for FY 2010 and FY 2009.

Fund Balance With Treasury (in Thousands)
                                                                     FY 2010                        FY 2009
Fund balance:
Trust funds                                                $                     3,981     $                  4,492


Status of fund balance with Treasury
Unobligated balance—available                              $                   847,259     $               793,370
Obligated balance not yet disbursed                                            180,922                      174,017
Non-budgetary fund balance with Treasury                                 (1,024,200)                      (962,895)
Total                                                      $                     3,981     $                  4,492




                                                        Section Six: Financial Management Discussion and Analysis | 59
Note 3—Investments                                              The overall portfolio earned an annual yield
and Related Interest                                            of 2.6 percent for FY 2010 and 2.9 percent
The OCC’s investments are stated at amortized                   for FY 2009.
cost and the related accrued interest. Premiums
and discounts are amortized over the term of the                The yield-to-maturity on the non-overnight
investment using the effective yield method.                    portion of the OCC’s investment portfolio ranged
The fair market value of investment securities                  from 0.7 percent to 4.5 percent in FY 2010, and
was $1,079.0 million on September 30, 2010,                     from 0.5 percent to 4.6 percent in FY 2009. The
and $1,006.0 million on September 30, 2009.                     figures below illustrate investments and related
                                                                interest for FY 2010 and FY 2009.

FY 2010 Investments and Related Interest (in Thousands)
                                                                                    Amortized
                                                                 Amortization                   Investments,   Market value
                                                   Cost                             (premium)
                                                                   method                           net         disclosure
                                                                                     discount

 Intragovernmental securities:
    Non-marketable market-based               $ 1,048,359 Effective yield $ (7,260) $1,041,099 $1,079,001
    Accrued interest                                  3,579                                 0         3,579          3,579
 Total intragovernmental investments $ 1,051,938                                    $ (7,260) $1,044,678 $1,082,580


FY 2009 Investments and Related Interest (in Thousands)
                                                                                    Amortized
                                                                 Amortization                   Investments,   Market value
                                                   Cost                             (premium)
                                                                   method                            net        disclosure
                                                                                     discount
 Intragovernmental securities:
    Non-marketable market-based               $    989,294 Effective yield $ (7,465) $ 981,829 $ 1,005,963
    Accrued interest                                  3,501                                 0        3,501           3,501
 Total intragovernmental investments $             992,795                          $ (7,465) $ 985,330 $ 1,009,464




60 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Note 4—Accounts Receivable                             CMPs are not debts due the OCC, the amount
As presented in the OCC’s Balance Sheets,              outstanding does not enter into the calculation
accounts receivable represent monies due from          for the allowance for uncollectible accounts.
the public, for services and goods provided, that      The OCC has recognized $50.7 million and
will be retained by the OCC upon collection. Also      $5.7 million in CMP non-entity revenue as of
included are civil money penalty (CMP) amounts         September 30, 2010 and 2009, respectively.
assessed against people or banks for violations        The figures below depict accounts receivable
of law, regulation, and orders; unsafe or unsound      for FY 2010 and FY 2009.
practices; and breaches of fiduciary duty. Since

FY 2010 Accounts Receivable (in Thousands)
                                                                   Allowance for                 Accounts
                                            Gross
                                                               uncollectible accounts         receivable, net
Civil money penalties receivables   $                  643 $                            0 $                     643
Nonfederal receivables                                  45                        (27)                           18
Total accounts receivable           $                  688 $                      (27) $                        661


FY 2009 Accounts Receivable (in Thousands)
                                                                   Allowance for                 Accounts
                                            Gross
                                                               uncollectible accounts         receivable, net
Civil money penalties receivables   $                  537 $                            0 $                     537
Nonfederal receivables                                  28                         (9)                           19
Total accounts receivable           $                  565 $                       (9) $                        556




                                                    Section Six: Financial Management Discussion and Analysis | 61
Note 5—Property and Equipment, Net                              For FY 2010 and 2009, the OCC reported
Property and equipment purchased at a cost                      $312.0 thousand and $2.2 million of fully
greater than or equal to the noted thresholds                   depreciated assets removed from service
below with useful lives of three years or                       and recognized a loss of $5.7 million and
more are capitalized at cost and depreciated                    $45.5 thousand on the disposal of other assets,
or amortized, as applicable. Leasehold                          respectively. The majority of the loss on the
improvements are amortized on a straight-line                   disposal of assets recognized in FY 2010
basis over the lesser of the terms of the related               resulted from the retirement from service of
leases or their estimated useful lives. All other               certain internally developed software that
property and equipment are depreciated or                       the OCC determined met the definition of an
amortized, as applicable, on a straight-line basis              impaired asset. The figures below summarize
over their estimated useful lives.                              property and equipment balances as of
                                                                September 30, 2010 and 2009.

FY 2010 Property and Equipment, Net (in Thousands)
                                                                                                Accumulated
                                               Capitalization                                                    Net book
               Class of assets                                  Useful life           Cost      depreciation/
                                                threshold                                                         value
                                                                                                amortization

 Leasehold improvements                        $          50           5-20 $          71,974 $     (37,701) $     34,273
 Equipment                                                50           3-10            27,180      (21,662)          5,518
 Internal use software                                  500                   5        63,496      (51,948)        11,548
 Internal use software–development                      500             N/A             9,858              0        9,858
 Leasehold improvements–development                       50            N/A             1,263              0        1,263
 Total                                                                            $   173,771 $ (111,311) $        62,460


FY 2009 Property and Equipment, Net (in Thousands)
                                                                                                Accumulated
                                               Capitalization                                                    Net book
               Class of assets                                  Useful life           Cost      depreciation/
                                                threshold                                                         value
                                                                                                amortization

 Leasehold improvements                        $          50           5-20 $          57,730 $    (30,089) $       27,641
 Equipment                                                50           3-10            26,549       (19,138)         7,411
 Internal use software                                  500                   5        65,080      (44,871)        20,209
 Internal use software–development                      500             N/A            10,978              0       10,978
 Leasehold improvements–development                       50            N/A            12,352              0       12,352
 Total                                                                            $   172,689 $ (94,098) $         78,591




62 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Note 6—Leases                                            continental United States, as old leases expired.
The OCC leases equipment and office space for            All of the OCC’s leases are treated as operating
both headquarters operations in Washington,              leases. All annual lease costs under the
D.C., and district and field operations. The lease       operating leases are included in the Statements
agreements expire at various dates. In FY 2010,          of Net Cost. Under existing commitments,
the OCC entered into four new lease occupancy            the minimum yearly lease payments through
agreements in various locations throughout the           FY 2016 and thereafter are shown below.

FY 2010 Future Lease Payments (in Thousands)             FY 2009 Future Lease Payments (in Thousands)
              Year                       Amount                           Year                         Amount
              2011                 $         35,528                      2010                   $              38,366
              2012                           24,055                      2011                                  33,417
              2013                           19,654                      2012                                 22,003
              2014                           16,757                      2013                                  18,068
              2015                           13,016                      2014                                  15,007
       2016 and beyond                       43,587               2015 and beyond                              51,808
              Total                $        152,597                      Total                  $             178,669




Note 7—Other Actuarial Liabilities                       reported on the Balance Sheets and include the
The OCC’s other actuarial liabilities are                components, as shown in the figure below.

Actuarial Liabilities Category (in Thousands)
                       Component                                   FY 2010                          FY 2009
Federal Employees Compensation Act (FECA)                 $                      1,299   $                      1,589
Postretirement life insurance benefits                                       24,991                            21,674
Total actuarial liabilities                               $                  26,290      $                    23,263




                                                      Section Six: Financial Management Discussion and Analysis | 63
Federal Employees Compensation Act                               the accumulated postretirement benefit obligation
The Federal Employees Compensation Act                           was 5.0 percent. Gains or losses owing to changes in
provides income and medical cost protection                      actuarial assumptions are amortized over the service
to cover federal civilian employees injured on                   life of the plan. The OCC recognized a $1.5 million
the job, employees who have incurred a work-                     increase in Accumulated Other Comprehensive
related occupational disease, and beneficiaries                  Income caused by a decrease in the discount
of employees whose death is attributable to a                    rate for FY 2010.
job-related injury or occupational disease. Claims
incurred for benefits for OCC employees covered                  Net periodic postretirement benefit costs for life
under the Federal Employees’ Compensation Act                    insurance provisions under the plan include the
are administered by the U.S. Department of Labor                 components as shown on this page. The total
and later billed to the OCC. The FY 2010 and                     benefit expenses are recognized as program
2009 present value of these estimated outflows is                costs in the Statements of Net Cost. Any gains
calculated using a discount rate of 3.7 percent in               or losses from changes in long-term assumptions
the first year and 4.3 percent in subsequent years,              used to measure liabilities for postretirement life
and 4.2 percent in the first year and 4.7 percent in             insurance benefits are displayed separately on the
subsequent years, respectively.                                  Statements of Net Cost, as required.

Postretirement Life Insurance Benefits                           The figure below presents a reconciliation
                                                                 of the beginning and ending postretirement
The OCC sponsors a life insurance benefit plan
                                                                 life insurance liability and provides material
for current and retired employees. This plan is a
                                                                 components of the related expenses.
defined benefit plan. The figure below sets forth the
plan’s funded status reconciled with the actuarial               Note 8—Net Position
liability. The actuarial cost method used to determine           Net Position represents the net result of operations
costs for the retirement plans is the Projected Unit             since inception and includes cumulative amounts
Credit method, a benefit valuation method used                   related to investments in capitalized assets held by
to determine the actuarial present value of the                  the OCC. The OCC sets aside a portion of its net
benefit obligation and the related service cost. The             position as contingency and asset replacement
weighted-average discount rate used in determining


Reconciliation of Beginning and Ending Postretirement Liability and the Related Expense (in Thousands)
            Change in actuarial and accrued benefits                         FY 2010                 FY 2009
 Actuarial postretirement liability beginning balance                $              21,674     $               17,078
 Actuarial expense:
    Normal cost                                                                         747                      595
    Interest on the liability balance                                                  1,198                   1,119
 Actuarial (gain)/loss:
    From experience                                                                     375                      (10)
    From assumption changes                                                            1,528                   3,334
 Prior service costs                                                                      0                        0
    Total expense                                                                      3,848                   5,038
 Less amounts paid                                                                     (531)                    (442)
 Actuarial postretirement liability ending balance                   $              24,991     $             21,674



64 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
reserves for use at the Comptroller’s discretion. In        special one-time needs as a result of the regulatory
addition, funds are set aside to cover the cost             restructuring required by Dodd–Frank.
of ongoing operations.
                                                            The asset replacement reserve funds the
The contingency reserve supports the OCC’s                  replacement of information technology
ability to accomplish its mission in the case of            investments, leasehold improvements, and
foreseeable but rare events. Foreseeable but rare           furniture replacements for future years. The
events are beyond the control of the OCC, such as           target level for the replacement reserve is
a major change in the national banking system or,           established annually based on the gross value
for instance, a fire, flood, or significant impairment      of existing property and equipment plus a
of the agency’s information technology systems.             growth-rate factor and a margin for market
In addition, reserves are available to address              cost adjustments. The figure below reflects
                                                            changes for FY 2010 and FY 2009.
Net Position Availability (in Thousands)
                       Component                                       FY 2010                      FY 2009
Contingency reserve                                           $                  425,048 $                  396,911
Asset replacement reserve                                                        192,900                    164,400
Set aside for ongoing operations:
    Undelivered orders                                                            58,906                      66,134
    Consumption of assets                                                         79,408                      97,554
    Capital investments                                                           29,192                      29,319
Net position                                                  $                  785,454 $                  754,318


Note 9—Net Cost of Operations                               program to arrive at its net cost. The imputed
The Net Cost of Operations represents the OCC’s             financing sources for net cost of operations are
operating costs deducted from assessments and               reported on the Statements of Changes in Net
fees paid by national banks and investment                  Position and in Note 11, Reconciliation of Net
interest income earned. The operating costs                 Cost of Operations to Budget.
include the gain/loss from actuarial experience
and assumption changes per SFFAS No. 33.                    The following figure illustrates the OCC’s
The revenue earned from reimbursable services               operating expense categories for FY 2010
is shown as an offset against the full cost of the          and FY 2009.

Net Cost of Operations by Expense Category (in Thousands)
                                                                        FY 2010                     FY 2009
Personnel compensation and benefits                           $                   508,575 $                 483,484
Contractual services                                                              106,476                     93,159
Rent, communication, and utilities                                                49,985                      49,586
Travel and transportation of persons and things                                    48,701                     46,093
Imputed costs                                                                     32,890                      26,196
Depreciation                                                                      25,490                      17,930
Other                                                                              16,354                     16,187
Total                                                         $                   788,471 $                 732,635



                                                         Section Six: Financial Management Discussion and Analysis | 65
Note 10—Imputed Costs and                                       employees, as applicable, to provide an estimate
Financing Sources                                               of the imputed financing that the OPM trust funds
In accordance with SFFAS No. 5, “Liabilities of                 will provide for each agency.
the Federal Government,” federal agencies must
recognize the portion of employees’ pension                     The imputed costs categories for FY 2010 and
and other retirement benefits to be paid by the                 FY 2009 are listed in the figure below. These
OPM trust funds. These amounts are recorded as                  imputed costs are included on the Statements of
imputed costs and imputed financing for other                   Net Cost. The financing sources absorbed by the
agencies. Annually, the OPM provides federal                    OPM are reflected on the Statements of Changes
agencies with cost factors for the computation of               in Net Position and in Note 11, Reconciliation
current year imputed costs. These cost factors are              of Net Cost of Operations to Budget.
multiplied by the current year salary or number of

Imputed Costs Absorbed by OPM (in Thousands)
                          Component                                         FY 2010                  FY 2009
 Retirement                                                        $                  18,509 $                 11,358
 Federal Employees’ Health Benefits                                                   14,346                   14,804
 Federal Employees’ Group Life Insurance                                                 35                       34
 Total imputed costs covered by OPM                                $                  32,890 $                 26,196




Note 11—Reconciliation of Net Cost                              in resources available (spending authority from
of Operations to Budget                                         offsetting collections) netted against the increase
The Reconciliation of Net Cost of Operations to                 of $24.2 million in resources used (obligations
Budget demonstrates the relationship between                    incurred) and the $6.7 million increase
the OCC’s proprietary (net cost of operations)                  in imputed financing. The increase in net
and budgetary accounting (net obligations)                      resources available is primarily due to increased
information. For FY 2010, the statement on                      assessment revenue, while the increase in
page 67 shows $21.0 million in excess resources                 resources used results from various office space
available to finance activities, a net decrease of              and information technology investments as well
$11.8 million over September 30, 2009. This net                 as salary and employee benefits, as shown on
decrease resulted from a $19.1 million increase                 the next page.




66 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
                          Office of the Comptroller of the Currency
                     Reconciliation of Net Cost of Operations to Budget
                      For the Years Ended September 30, 2010 and 2009
                                               (in Thousands)


                                                                                     2010                  2009
Resources used to finance activities
Budgetary resources obligated
   Obligations incurred                                                        $       740,220       $      715,998
   Less: Spending authority from offsetting collections                               (794,109)            (775,011)
   Net obligations                                                                     (53,889)             (59,013)
Other resources
   Imputed financing sources (Note 10)                                                   32,890               26,196
Total resources used to finance activities                                             (20,999)             (32,817)


Resources used to finance items not part of the net cost of operations
   Change in budgetary resources obligated for goods, services,
     and benefits ordered but not yet provided                                              (792)             (2,070)
   Resources that finance the acquisition of assets                                      (9,359)            (25,431)
Total resources used to finance items not part of the
   net cost of operations                                                               (10,151)             (27,501)
Total resources used to finance the net cost of operations                     $       (31,150)      $      (60,318)


Components of the net cost of operations that will not require
or generate resources in the current period
Components requiring or generating resources in future periods
   Change in deferred revenue                                                               5,378              8,781
   Increase in exchange revenue receivable from the public                                     1                    3
  Total components that will require or generate resources
     in future periods                                                                      5,379              8,784


Components not requiring or generating resources
   Depreciation and amortization                                                         19,822               17,885
   Net increase in bond premium                                                             2,035             (8,463)
   Other                                                                                    5,668                  45
  Total components that will not require or generate resources                           27,525                9,467
Total components of net cost of operations that will not require or
   generate resources in the current period                                              32,904               18,251


Net cost of operations                                                         $            1,754    $      (42,067)




                                                        Section Six: Financial Management Discussion and Analysis | 67
Note 12—Commitments and                                         relations claims, some of which may ultimately
Contingencies                                                   result in settlements or decisions against
The OCC recognizes and discloses                                the federal government. Contingencies for
contingencies in accordance with SFFAS                          litigations involving the OCC, where the risk of
No. 12, “Recognition of Contingent Liabilities                  loss was reasonably possible, were $1.0 million
Arising from Litigation.” The OCC is party                      and $1.3 million as of September 30, 2010, and
to various administrative proceedings, legal                    September 30, 2009, respectively. Since the risk
actions, and claims brought against it, including               of loss for these litigations was not probable, the
threatened or pending litigation involving labor                OCC did not record any liability.




68 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Independent Auditor’s Report


gka, P.C.                                                  Certified Public Accountants | Management Consultants

                                     Independent Auditor's Report on Financial Statements
1015 18th Street, NW
      Suite 200
  Washington, DC           Inspector General, Department of the Treasury, and
        20036              the Comptroller of the Currency:

   Phone: 202-857-1777
    Fax: 202-857-1778
 Website: www.gkacpa.com   We have audited the accompanying balance sheets of the Office of the
                           Comptroller of the Currency (OCC) as of September 30, 2010 and 2009, and
                           the related statements of net cost, changes in net position and budgetary
                           resources (hereinafter referred to as “financial statements”) for the years then
                           ended. These financial statements are the responsibility of the management of
                           OCC. Our responsibility is to express an opinion on these financial statements
                           based on our audits.

                           We conducted our audits in accordance with auditing standards generally
                           accepted in the United States of America; the standards applicable to financial
                           audits contained in Government Auditing Standards, issued by the Comptroller
                           General of the United States; and applicable provisions of Office of
                           Management and Budget Bulletin No. 07-04, Audit Requirements for Federal
                           Financial Statements, as amended. Those standards require that we plan and
                           perform the audits to obtain reasonable assurance about whether the financial
                           statements are free of material misstatement. An audit includes examining, on
                           a test basis, evidence supporting the amounts and disclosures in the financial
                           statements. An audit also includes assessing the accounting principles used
                           and significant estimates made by management, as well as evaluating the
                           overall financial statement presentation. We believe that our audits provide a
                           reasonable basis for our opinion.

                           In our opinion, the financial statements referred to above present fairly, in all
                           material respects, the financial position of the OCC as of September 30, 2010
                           and 2009, and its net costs, changes in net position, and budgetary resources
                           for the years then ended in conformity with accounting principles generally
                           accepted in the United States of America.

                           The information in Section Six, pages 43 through 50, and pages 75 and 76 of
                           OCC’s fiscal year 2010 Annual Report is not a required part of the financial
                           statements but is supplementary information required by accounting principles
                           generally accepted in the United States of America. We have applied certain
                           limited procedures, which consisted principally of inquiries of management
                           regarding the methods of measurement and presentation of this information.
                           However, we did not audit this information, and we express no opinion on it.




                                                              Member of the American Institute of Certified Public Accountants

                                                        Section Six: Financial Management Discussion and Analysis | 69
   Our audits were conducted for the purpose of forming an opinion on the financial statements
   taken as a whole. The information included in Sections One, Two, Three, Four and Five of
   OCC’s fiscal year 2010 Annual Report is presented for purposes of additional analysis and is
   not a required part of the financial statements. We did not audit this information, and we
   express no opinion on it.

   In accordance with Government Auditing Standards, we have also issued reports dated
   October 29, 2010, on our consideration of the OCC’s internal control over financial reporting,
   and on our tests of its compliance with certain provisions of applicable laws, regulations, and
   contracts. These reports are an integral part of an audit performed in accordance with
   Government Auditing Standards, and should be read in conjunction with this report in
   considering the results of our audits.




   October 29, 2010




70 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
                                                         Certified Public Accountants | Management Consultants

gka, P.C.                     Independent Auditor's Report on Internal Control over Financial
                                                       Reporting
1015 18th Street, NW
      Suite 200           Inspector General, Department of the Treasury, and
  Washington, DC          the Comptroller of the Currency:
        20036
  Phone: 202-857-1777     We have audited the balance sheet and the related statements of net cost,
   Fax: 202-857-1778
Website: www.gkacpa.com   changes in net position, and budgetary resources, hereinafter referred to as
                          “financial statements” of the Office of the Comptroller of the Currency (OCC)
                          as of and for the year ended September 30, 2010, and have issued our report
                          thereon dated October 29, 2010. We conducted our audit in accordance with
                          auditing standards generally accepted in the United States of America; the
                          standards applicable to financial audits contained in Government Auditing
                          Standards, issued by the Comptroller General of the United States; and the
                          applicable provisions of Office of Management and Budget (OMB) Bulletin
                          No. 07-04, Audit Requirements for Federal Financial Statements, as amended.

                          In planning and performing our audit, we considered the OCC’s internal
                          control over financial reporting by obtaining an understanding of the design
                          effectiveness of OCC’s internal control, determined whether these internal
                          controls had been placed in operation, assessed control risk, and performed
                          tests of controls as a basis for designing our auditing procedures for the
                          purpose of expressing our opinion on the financial statements. We limited our
                          internal control testing to those controls necessary to achieve the objectives
                          described in OMB Bulletin No. 07-04 and Government Auditing Standards.
                          We did not test all internal controls relevant to operating objectives as broadly
                          defined by the Federal Managers’ Financial Integrity Act of 1982, such as
                          those controls relevant to ensuring efficient operations. The objective of our
                          audit was not to provide an opinion on the effectiveness of OCC’s internal
                          control over financial reporting. Consequently, we do not provide an opinion
                          on the effectiveness of OCC’s internal control over financial reporting.

                          Our consideration of the internal control over financial reporting was for the
                          limited purpose described in the preceding paragraph and was not designed to
                          identify all deficiencies in internal control over financial reporting that might
                          be deficiencies, significant deficiencies, or material weaknesses. A deficiency
                          in internal control exists when the design or operation of a control does not
                          allow management or employees, in the normal course of performing their
                          assigned functions, to prevent or detect and correct misstatements on a timely
                          basis. A significant deficiency is a deficiency or combination of deficiencies,
                          in internal control that is less severe than a material weakness, yet important
                          enough to merit attention by those charged with governance. A material
                          weakness is a deficiency, or a combination of deficiencies, in internal control,
                          such that there is a reasonable possibility that a material misstatement of the


                                                            Member of the American Institute of Certified Public Accountant

                                                      Section Six: Financial Management Discussion and Analysis | 71
   entity’s financial statements will not be prevented, or detected and corrected on a timely basis.
   We did not identify any deficiencies in internal control over financial reporting that we
   consider to be material weaknesses, as defined above.

   We noted certain matters involving internal control and its operation that we reported to
   management of OCC in a separate letter dated October 29, 2010.

   This report is intended solely for the information and use of the Management of the OCC, the
   Department of the Treasury Office of Inspector General, the Government Accountability
   Office, OMB, and the U.S. Congress, and is not intended to be, and should not be used by
   anyone other than these specified parties. However, this report is a matter of public record and
   its distribution is not limited.




   October 29, 2010




72 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
gka, P.C.
                                                         Certified Public Accountants | Management Consultants

                                      Independent Auditor's Report on Compliance with
                                                   Laws and Regulations
1015 18th Street, NW
      Suite 200           The Inspector General, Department of the Treasury, and
  Washington, DC          the Comptroller of the Currency:
        20036
  Phone: 202-857-1777     We have audited the balance sheets and the related statements of net cost,
   Fax: 202-857-1778
Website: www.gkacpa.com   changes in net position, and budgetary resources, hereinafter referred to as
                          “financial statements” of the Office of the Comptroller of the Currency (OCC)
                          as of and for the years ended September 30, 2010 and 2009, and have issued
                          our report thereon dated October 29, 2010. We conducted our audits in
                          accordance with auditing standards generally accepted in the United States of
                          America; the standards applicable to financial audits contained in Government
                          Auditing Standards, issued by the Comptroller General of the United States;
                          and, the applicable provisions of Office of Management and Budget (OMB)
                          Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
                          amended.

                          The management of the OCC is responsible for complying with laws and
                          regulations applicable to the OCC. As part of obtaining reasonable assurance
                          about whether the OCC’s financial statements are free of material
                          misstatement, we performed tests of its compliance with certain provisions of
                          laws and regulations and contracts, noncompliance with which could have a
                          direct and material effect on the determination of financial statement amounts,
                          and certain provisions of other laws and regulations specified in OMB Bulletin
                          No. 07-04, including certain requirements referred to in Section 803(a) of the
                          Federal Financial Management Improvement Act (FFMIA) of 1996. We
                          limited our tests of compliance to the provisions described in the preceding
                          sentence, and we did not test compliance with all laws, regulations and
                          contracts applicable to the OCC. However, our objective was not to provide an
                          opinion on overall compliance with laws, regulations and contracts.
                          Accordingly, we do not express such an opinion.

                          The results of our tests of compliance with laws, regulations and contracts
                          described in the preceding paragraph, exclusive of FFMIA, disclosed no
                          instances of noncompliance that are required to be reported under Government
                          Auditing Standards or OMB Bulletin No. 07-04.

                          Under FFMIA, we are required to report whether the OCC’s financial
                          management systems substantially comply with (1) federal financial
                          management systems requirements, (2) applicable federal accounting
                          standards, and (3) the United States Government Standard General Ledger at
                          the transaction level. To meet this requirement, we performed tests of
                          compliance with FFMIA section 803(a) requirements.


                                                           Member of the American Institute of Certified Public Accountants

                                                     Section Six: Financial Management Discussion and Analysis | 73
   The results of our tests disclosed no instances in which the OCC’s financial management
   systems did not substantially comply with the three requirements discussed in the preceding
   paragraph.

   This report is intended solely for the information and use of the Management of the OCC, the
   Department of the Treasury Office of Inspector General, the Government Accountability
   Office, OMB, and U.S. Congress and is not intended to be, and should not be used by anyone
   other than these specified parties. However, this report is a matter of public record and its
   distribution is not limited.




   October 29, 2010




74 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Other Accompanying Information
Performance Measures and Results
The OCC’s FY 2010 performance measures, workload indicators, customer service standards,
and results are presented in Figure 14.

Figure 14: Performance Measures, Workload Indicators, Customer Service Standards, and Results
                                     Performance measure                                                               FY 2010
 Strategic                                                                                FY       FY       FY
                                       workload indicator
   goal                                                                                  2007     2008     2009    Target   Actuala
                                   customer service standard
 I. A safe and sound national banking system
             Percentage of national banks with composite CAMELS rating of 1 or 2b         96%      92%     82%       90%      72%
             Rehabilitated problem national banks as a percentage of the problem
                                                                                          52%      47%     29%       40%      22%
             national banks one year ago (CAMELS 3, 4, or 5)b
             Percentage of national banks that are categorized as well capitalizedb       99%      99%     86%       95%      91%
             Percentage of critically undercapitalized banks on which responsible
             action is taken within 90 calendar days after they become critically        100%     100%    100%      100%     100%
             undercapitalized
             Average survey response that the report of examination clearly
             communicated examination findings, significant issues, and the               1.32     1.28     1.34   < 1.75        1.47
             corrective actions management needed to takec
 II. Fair access to financial services and fair treatment of bank customers
             Percentage of national banks with consumer compliance rating of 1 or 2       97%      97%     97%       94%      96%
             Percentage of qualified intermediate small banks to which the OCC
             offers to provide consultation on the Community Reinvestment Act            100%     100%    100%      100%     100%
             and community development opportunities
             Percentage of consumer complaints closed within 60 calendar days
                                                                                          18%      12%       8%      80%         3%
             of receipt
             Number of consumer complaints opened/closed during the fiscal year         33,655 41,656 58,810       72,000 80,336
             Number of consumer complaints opened/closed during the fiscal year         26,245 30,986 32,533       70,000 79,660
 III. A flexible legal and regulatory framework that enables the national banking system to provide a full, competitive
 array of financial services
             Percentage of external legal opinions issued within established
                                                                                          96%      92%     88%       86%      85%
             time frames
             Number of external legal opinions issued during the fiscal year                81       73       53       60         64
             Percentage of licensing applications and notices filed electronically        38%      46%     51%       40%      44%
             Number of licensing applications and notices filed electronically during
                                                                                         1,261    1,525    1,681    1,200    1,440
             the fiscal year
             Percentage of licensing applications and notices completed within
                                                                                          96%      95%     95%       95%      96%
             established time frames
             Number of licensing applications and notices completed during the
                                                                                         2,278    1,843    1,471    1,500    1,344
             fiscal yeard
             Average survey rating of the overall licensing services provided
                                                                                          1.20     1.22     1.25    < 1.5        1.15
             by the OCCe
 IV. An expert, highly motivated, and diverse workforce that makes effective use of OCC resources
             Total OCC costs relative to every $100,000 in bank assets regulated        $ 8.89   $ 8.39 $ 8.81 $ 9.22 $ 9.28

Source: OCC data for all fiscal years.




                                                                      Section Six: Financial Management Discussion and Analysis | 75
a
    Fiscal year 2010 performance numbers shown in bold italics are estimates. Some performance data is obtained from quarterly call
    reports from banks. The September 30, 2010, call reports are not due until 30 or 45 days after the end of the period. Additionally,
    examinations concluded late in the fiscal year are not finalized for another 30 to 60 days. As a result, complete fiscal year data are not
    yet available; therefore, estimates have been reported.
b
    These performance measures for FY 2010 are below target primarily because of the difficult economic situation the entire financial
    industry is facing. The OCC continues to closely monitor the capital levels and performance of all our banks and, when necessary,
    initiates formal and informal agreements to enhance our level of supervision.
c
    The examination survey is based on a five-point scale, in which 1 indicates complete agreement and 5 indicates complete disagreement.
d
    The number of total applications and notices has declined from the previous fiscal year because the number is based on actual
    applications received, which also declined.
e
    The licensing survey is based on a five-point scale, in which 1 indicates outstanding and 5 indicates significantly deficient.



Improper Payments Information Act                                          control measures are implemented to prevent
The Improper Payments Information Act                                      additional erroneous payments.
of 2002, as implemented by the Office of
Management and Budget, requires federal                                    The OCC corrected and recovered all erroneous
agencies to review all programs and activities                             payments made during the year. Figure 15
annually and identify those that may be                                    summarizes the OCC’s erroneous payments
susceptible to significant erroneous payments.                             for FY 2010 and FY 2009.
The OCC analyzed payments (excluding
                                                                           Figure 15: Erroneous Payments
payroll) made during FY 2010 and identified
                                                                                                                    FY 2010          FY 2009
26 erroneous payments requiring adjustments
                                                                            Number of payments                              26             30
totaling $29,163. Erroneous payments are
identified and monitored daily to ensure                                    Dollar value of adjustments            $ 29,163 $ 29,476
prompt recovery. The underlying causes and                                 Source: OCC data.

contributing factors are identified quickly, and




76 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Assurance Statement                                    I am providing unqualified assurance that the
                                                       above listed management control objectives
The Office of the Comptroller of the Currency          were achieved by the OCC without material
(OCC) has made a conscientious effort during           weakness during FY 2010. Specifically, this
fiscal year (FY) 2010 to meet the internal             assurance is provided relative to Sections 2
control requirements of the Federal Managers’          and 4 of the FMFIA.
Financial Integrity Act (FMFIA), the Federal
Financial Management Improvement Act                   I am also reporting substantial compliance with
(FFMIA), and Office of Management and                  the requirements imposed by the FFMIA.
Budget (OMB) Circular A-123. The OCC
systems of management control are designed             The OCC also conducted its assessment of the
to ensure that:                                        effectiveness of internal control over financial
                                                       reporting, which includes the safeguarding of
   a.	Programs achieve their intended results;         assets and compliance with applicable laws and
                                                       regulations, in accordance with the requirements
   b.	Resources are used in accordance with
                                                       of Appendix A of OMB Circular A-123. Based
      the agency’s mission;
                                                       on the results of this evaluation, the OCC can
   c.	Programs and resources are protected             provide unqualified assurance that its internal
      from waste, fraud, and mismanagement;            control over financial reporting was operating
   d.	Laws and regulations are followed;               effectively as of June 30, 2010, and no material
                                                       weaknesses were found in the design or operation
   e.	Controls are sufficient to minimize              of the internal control over financial reporting.
      improper or erroneous payments;
   f.	 Performance information is reliable;            In September, the OCC reorganized the
                                                       Information Technology Services (ITS)
   g.	System security is in substantial                business unit by integrating it into the
      compliance with relevant requirements;           Office of Management. As we progress with
   h.	Continuity of operations planning in             implementation of this organizational change,
      critical areas is sufficient to reduce risk      we are taking the opportunity to strengthen
      to reasonable levels; and                        internal controls, including quality control
                                                       and quality assurance activities, throughout
   i.	 Financial management systems are
                                                       ITS programs.
       in compliance with federal financial
       systems standards, i.e., FMFIA Section          I also provide unqualified assurance that our
       4 and FFMIA.                                    supervision programs achieved intended
                                                       results despite the extraordinary challenges
                                                       that continued to confront the national banking
                                                       system this year.




                                                    Section Six: Financial Management Discussion and Analysis | 77
The worst post-Depression financial crisis                      FY 2010 brought us the design, consideration,
continued to present the OCC with new                           and enactment of the most sweeping financial
challenges and opportunities. The measures                      reform legislation in 75 years, and the OCC
taken by the Department, the Federal Reserve,                   vigorously participated in this process. The
the FDIC, the Congress, the OCC, and others                     resulting legislation includes important reforms
ultimately were effective. Confidence returned                  to the system, including systemic risk regulation
and banks successfully raised large amounts                     and resolution, revised mortgage standards, and
of private capital in the wake of the stress test,              new derivatives regulation.
and repaying government capital investment
is substantially underway. In short, while the                  One particularly important part of the new
financial system continues to face significant                  law expands the OCC’s role as a dedicated
challenges, banks have stabilized, confidence                   prudential supervisor of federally chartered
has improved markedly, and institutions                         institutions, by transferring to the OCC the
are more strongly positioned to help fund                       functions of the Office of Thrift Supervision
economic recovery.                                              (OTS) with respect to federally chartered
                                                                savings associations following the abolishment
During FY 2010, conditions in large national                    of the OTS.
banks stabilized and remained stable compared to
the year before. With the major build in reserves               The OCC looks forward to undertaking our new
for loan and lease losses substantially achieved,               responsibilities under the Dodd–Frank Wall
large institutions have returned to profitability.              Street Reform and Consumer Protection Act in
                                                                FY 2011. Work is already proceeding with the
Although problems continue among the midsize                    process of transitioning transferred functions
and community bank population, the rate of                      and staff from the OTS to the OCC within the
increase in the number of seriously troubled                    timeframe specified in the Act. The OCC also is
banks has slowed. We continue to closely                        participating in the process for establishing the
monitor those banks with deteriorating trends                   new Bureau of Consumer Financial Protection.
and initiate informal and formal enforcement                    The OCC will also be actively involved in the
actions to pursue rehabilitation or resolution at               process of the establishment of the Financial
the lowest possible cost to the Deposit Insurance               Stability Oversight Council. Lastly, the OCC
Fund. The Special Supervision Division                          has already begun the rule writing process and
meets monthly with the other federal banking                    responding to other actions required by the Act.
agencies to consider and coordinate supervisory
responses to problem banks. During FY 2010
we increased division staffing to keep pace with
the problem bank population.




78 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Analytical Basis of Assurance Statement                 • Results of internal reviews, including
The OCC evaluated its management controls                 quality management program assessments
in accordance with the FY 2010 Secretary’s                by the Enterprise Governance unit;
Assurance Statement Guidance of June 30,                • Results of control self-assessments
2010, and considered the following guidance:              completed by OCC managers in FY 2010;
   • OMB Circular A-123, Management’s                   • Audit reports and evaluations issued by
     Responsibility for Internal Control;                 the Government Accountability Office
                                                          (GAO) and the Office of the Inspector
   • OMB Circular A-127, Financial
                                                          General;
     Management Systems;
                                                        • Completed Improper Payments
   • OMB Circular A-130, Management of
                                                          Information Act risk assessment materials
     Federal Information Resources; and,
                                                          submitted to the Department in
   • Treasury Directive 40-04, Treasury                   June 2010;
     Internal (Management) Control Program.
                                                        • Completed GAO Core Financial System
Information considered in our control                     Requirements Checklist;
assessment included the following:                      • FFMIA Risk Model and Financial
   • FMFIA certifications submitted by each               Management System Self-Assessment
     Executive Committee member;                          Checklists submitted to the Department
                                                          in July 2010;
   • FFMIA certification submitted by our
     Chief Financial Officer;                           • Unqualified and timely audit opinion
                                                          on FY 2009 financial statements; and,
   • OCC’s Strategic Risk Management Plan;
                                                        • CPAs Gardiner, Kamya and Associates’
   • Results of internal control testing under            status report of October 15, 2010, on the
     OMB Circular A-123, Appendix A;                      FY 2010 financial statement audit.
   • Executive Committee descriptions
     of business unit quality management
     programs;                                                                  John Walsh
                                                                                Acting Comptroller
                                                                                of the Currency
                                                                                November 3, 2010




                                                 Section Six: Financial Management Discussion and Analysis | 79
80 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Acronyms
AML: anti-money laundering

BSA: Bank Secrecy Act

CAMELS (the components of the Uniform Financial Institutions Rating System):

   C capital
   A asset quality
   M management
   E earnings
   L liquidity
   S sensitivity to market risk

CFR: Code of Federal Regulations

CMP: civil money penalty

CPA: certified public accountant

CRE: commercial real estate

CRA: Community Reinvestment Act

FAS: Financial Accounting Standards

FASAB: Federal Accounting Standards Advisory Board

FASB: Financial Accounting Standards Board

FBWT: Fund balance with Treasury

FECA: Federal Employees Compensation Act

FDIC: Federal Deposit Insurance Corporation

FFMIA: Federal Financial Management Improvement Act

FMFIA: Federal Managers Financial Integrity Act

FSB: Financial Stability Board

FSF: Financial Stability Forum




                                                                               Acronyms | 81
FSOC: Financial Stability Oversight Council

FY: fiscal year

GAAP: generally accepted accounting principles

GAO: Government Accountability Office

HAMP: Home Affordable Modification Program

ITS: Information Technology Services

OCC: Office of the Comptroller of the Currency

OMB: Office of Management and Budget

OPEB: other postemployment benefit

OPM: Office of Personnel Management

ORB: other retirement benefit

OTS: Office of Thrift Supervision

RCC: remotely created checks

SBA: Small Business Administration

SCAP: Supervisory Capital Assessment Program

SFAS: Statement of Financial Accounting Standards

SFFAS: Statement of Federal Financial Accounting Standards

SSG: Senior Supervisors Group

TARP: Troubled Asset Relief Program

USC: U.S. Code




82 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
Index
A
Advisory Council on Financial Capability: 15
American Recovery and Reinvestment Act: 12
anti-money laundering: 5, 14
assurance statement: 77–79

B
Banking Relations Division: 12
Bank Secrecy Act: 14
Bank Supervision Policy Department: 34
Basel III capital and liquidity standards: 4, 9, 19–20
Basel Committee on Banking Supervision, risk management principles and: 7, 9, 19
Bell, W.B.: 25
Belony, Naomie: 26
Bloom, Thomas R.: 32, 33, 35, 44
Bureau of Consumer Financial Protection (See Consumer Financial Protection, Bureau of)

C
Capital One Bank, N.A.: 14
Change in Bank Control Act: 39
Chief Counsel: 32, 33, 34
Chief Financial Officer: 32, 33, 35, 43, 44, 79
   financial management discussion and analysis section of the: 43
   letter from: 43
Chief of Staff and Public Affairs: 31, 33
Civil Service Retirement System: 49, 57
commercial real estate: 10, 11, 19, 29
   OCC guidance on: 10, 19
   problems in: 10
community banking: 25
Community Developments, newsletter: 12
Community Developments Investments, online e-zine: 17
Community Reinvestment Act: 13, 17, 18, 41, 75
Comptroller of the Currency (See Dugan, John C., and Walsh, John)
Comptroller’s Handbook: 13
Conference of State Bank Supervisors: 8, 9
“Conozca la OCC” (Meet the OCC) Univision video: 23
Consumer Federation of America: 15
Consumer Financial Protection, Bureau of:
   cooperation with the OCC: 20, 78
   mission of: 4



                                                                                         Index | 83
Council for Economic Education: 15
credit quality, monitoring of: 10
Credit Underwriting Practices, Survey of: 10
Cross, Glenda: 23
Customer Assistance Group, activities of: 15, 16, 23, 35

D
Deepwater Horizon oil spill: 24
Delano, Preston: 24
Department of the Treasury, U.S., Office of Financial Education: 15
Dodd–Frank Wall Street Reform and Consumer Protection Act of 2010: 3, 4, 6, 7, 17, 18, 19–20, 43,
   44, 47, 55, 65, 78
   community development and provisions of: 17, 43
Dugan, John C.: 3, 17, 18, 19

E
Economics Department: 35
enforcement actions: 11, 14, 40, 78
Evers, Joseph: 22
Executive Committee: 32, 79
Export–Import Bank of the United States: 12
External Outreach and Minority Affairs, office of: 23

F
Federal Deposit Insurance Corporation: 11, 78
Federal Deposit Insurance Corporation Improvement Act of 1991: 11, 19
Federal Employees Retirement System: 49, 57, 58
Federal Reserve Board: 8
Financial Accounting Standards Board, 2006 rules: 9
Financial Accounting Standards Nos. 166 and 167: 9
financial crisis, 2007–2009: 3, 5, 7, 9, 11, 12, 15, 18, 19, 20, 29, 30, 78
Financial Crisis Inquiry Commission: 18
financial literacy: 13, 15, 17, 23, 26
Financial Stability Board: 7, 8
Financial Stability Forum (See Financial Stability Board)
Financial Stability Oversight Council: 3–4, 20, 78
    mission of: 20

G
Geithner, Timothy F.: 15
gift cards, OCC guidance on: 17, 23
Gramm–Leach–Bliley Act of 1999: 13




84 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
H
Hattix, Larry L.: 33, 35
Hawke, John D., Jr.: 18, 24
Home Affordable Modification Program: 22
HOPE NOW: 21–22
Housing and Urban Development, U.S. Department of: 18
Hurricanes Katrina and Rita: 18, 24

I
Improper Payments Information Act, statistics on: 76
incentive compensation: 7, 8
Independent Auditor’s Report on Financial Statements: 69–70
Independent Auditor’s Report on Internal Control over Financial Reporting: 71–72
Individual Development Accounts: 15
interest rate risk: 8

J
Joint Forum: 7
JumpStart Coalition for Personal Financial Literacy: 15

K
Kelly, Jennifer C.: 32, 33, 34

L
Large Bank Supervision Department: 32, 34
Lean Six Sigma: 44
Levonian, Mark: 32, 33, 35
Lewis, David: 21
licensing and enforcement measures: 37–41
Lincoln, Abraham: 6
liquidity: 5, 7, 9, 19, 20
    risk management of: 9
Long, Timothy W.: 18, 19, 32, 33, 34

M
Management, Office of: 35, 44, 77
“Management’s Responsibility for Internal Control,” OMB Circular A-123: 43, 79
mortgage lending: 3, 13

N
National Academy of Finance: 26
national banks (See national banking system)




                                                                                   Index | 85
national banking system:
    at-a-glance: 2
    Bank Secrecy Act/anti-money laundering compliance: 14
    capital position and requirements: 5, 30
    compensation policies: 5
    condition of: 29–30
    credit underwriting standards of: 10
    earnings: 5
    failures in: 11
    funding and loan growth: 30
    mortgage lending activities of: 29
    outlook for: 30
    provisions and credit quality: 29
    regulatory compliance: 5, 34
    revenues: 30
    risk in: 5
National Currency Act (of 1863): 6, 55
National Interagency Community Reinvestment Conference: 17
Neighborhood Stabilization Program: 18
Nowe, Jim: 27

O
OCC (See Office of the Comptroller of the Currency)
OCC and OTS Mortgage Metrics Report: 22
Office of Management and Budget: 31, 43, 55, 76, 77, 79
Office of the Comptroller of the Currency:
    action against Capital One Bank, N.A.: 14
    action against T Bank, N.A.: 14–15
    assets of: 45
    assurance statement of: 77–79
    at-a-glance: 2
    balance sheets of: 51, 52, 53, 54
    Banking Relations Division: 12
    Bank Secrecy Act enforcement and: 14
    budgetary resources of: 50, 54, 67
    Bureau of Consumer Financial Protection and: 4, 20, 78
    Community Affairs Department: 12, 17, 34
    community bank supervision: 25, 34
    community development activities: 17, 18
    cost of operations: 49–50, 65, 66, 67
    credit quality monitoring and evaluation: 10, 29
    Customer Assistance Group: 15, 16, 23, 35
    customer privacy initiatives: 13
    enforcement actions: 11, 14, 40, 78



86 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
    examiners: 10, 11, 12, 13, 22, 26–27, 28, 36
    fair lending supervision: 13
    financial highlights: 45–50
    financial literacy and: 13, 15, 17, 23, 26
    financial management discussion and analysis: 43–79
    foreclosure mitigation activities: 21–22
    Hispanic outreach initiatives: 23
    independent auditor’s reports: 69–70, 70–71, 72–74
    investments: 48, 56, 60
    liabilities: 45–46, 57, 63
    licensing and enforcement measures: 37–39
    mission: 55
    Mortgage Metrics Report, OCC and OTS: 22
    net position of: 46–47
    notes to the financial statements of: 55–68
    office locations: 2
    organization profile of: 31–35
    performance measures and results of: 75–76
    problem banks: 11, 78
    promotes credit availability: 12
    promotes small business lending: 12
    reconciliation of net cost of operations to budget of: 66–67
    record during financial crisis: 19
    reserves of: 47
    response to crises: 19, 24
    revenues and costs of: 47–48
    reverse mortgages, guidance on: 13, 23
    shared national credit review: 10–11
    statements of budgetary resources: 54
    statements of changes in net position: 53
    statements of net cost: 52
    strategic goals: inside rear cover
    supervisory approach: 7, 8
    supervisory initiatives: 8
    Survey of Credit Underwriting Practices: 10
    workforce: 26–27
Office of Thrift Supervision: 3, 20, 22, 43, 44, 55, 78
Ombudsman: 33, 35

P
prompt corrective action: 19, 40
Public Affairs Department: 23, 35




                                                                   Index | 87
R
Rayford, Erik: 26
remotely created checks: 14
reverse mortgages, supervisory guidance on: 13, 23
risk management: 3, 5, 7, 8, 9, 10, 12
    interest rate and: 8
    liquidity and: 5, 7, 9, 19, 20
    off-balance-sheet and: 9, 20
Roeder, Douglas W.: 26, 32, 33, 34
Russell, Bonnie: 26

S
Schainost, Scott: 26
Senior Supervisors Group: 7
Shared National Credits Review: 10–11
shelf charters: 11
Small Business Administration, programs of: 12
small business lending: 12
Somerville (Ohio) National Bank: 25
stress tests (See Supervisory Capital Assessment Program)
Supervisory Capital Assessment Program: 9, 19

T
T Bank, N.A.: 14
Treasury, U.S. Department of the: 15, 42, 45, 47, 48, 56, 58
Troubled Asset Relief Program: 19

U
underwriting survey (See Credit Underwriting Practices, Survey of )
Univision Communications: 23

V
Volcker rule: 5

W
Walsh, John: 18, 20, 31
   Viewpoint of: 3–5
Wides, Barry R.: 21
Williams, Julie L.: 32, 33, 34




88 | Office of the Comptroller of the Currency | Annual Report | Fiscal Year 2010
THE OCC’S
STRATEGIC GOALS
A safe and sound national
banking system.

Fair access to financial services and
fair treatment of bank customers.

A flexible legal and regulatory
framework that enables the national
banking system to provide a full,
competitive array of financial services.

An expert, highly motivated,
and diverse workforce that makes
effective use of OCC resources.
Comptroller of the Currency | Administrator of National Banks | Washington, DC 20219 | www.occ.gov
